1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 19-1161
MONTREAL MAINE & ATLANTIC RAILWAY, LTD.,
Debtor.
ROBERT JAMES KEACH, Estate Representative of
Post-Effective Date Estate of Montreal, Maine,
and Atlantic Railway, Ltd.,
Appellant,
v.
NEW BRUNSWICK SOUTHERN RAILWAY COMPANY
LIMITED; MAINE NORTHERN RAILWAY COMPANY,
Appellees.
Appeal from the United States Bankruptcy Court
for the District of Maine
Hon. Peter G. Cary, U.S. Bankruptcy Judge
Filed March 10, 2020

Before: Torruella, Thompson, and Barron, Circuit
Judges.
* * *
OPINION
BARRON, Circuit Judge:

2a
This case arises out of the 2013 petition for bankruptcy that the Montreal Maine & Atlantic Railway,
Ltd. (“MMA”) filed in the United States Bankruptcy
Court for the District of Maine. The dispute concerns
whether priority status should be given to certain
claims that creditor railroads filed with the Bankruptcy
Court. The creditor railroads in these claims sought to
recover their share of the payments that the MMA was
to collect for charges that had been billed to customers
that had shipped freight on routes that spanned rail
systems that were owned at the time by, respectively,
the MMA and the creditor railroads.
The creditor railroads argued that, because the
MMA incurred the debt for their share of these payments so close in time to the MMA’s bankruptcy, their
claims qualified as what are known as “Six Months Rule”
claims under 11 U.S.C. § 1171(b) of the Bankruptcy Code
and so must be paid in full before other claims. See generally Czyzewski v. Jevic Holding Corp., 137 S. Ct. 973,
979 (2017) (explaining bankruptcy priority rules). The
Bankruptcy Court and the Bankruptcy Appellate Panel
(“BAP”) agreed. We now affirm.
I.
The debtor in bankruptcy is the MMA. For more
than a decade, the MMA owned and operated a rail system that stretched throughout northern New England
and into the Canadian provinces of Québec and New
Brunswick.
The creditor railroads are the New Brunswick
Southern Railway Company Limited and the Maine
Northern Railway Company (collectively, “the Irving
Railroads”). While the MMA’s rail system was operating in New England and Canada, the Irving Railroads

3a
owned and operated their own rail systems, which operated in Maine and New Brunswick and were able to
connect with the MMA’s.
The Irving Railroads and the MMA each used their
own locomotives and tracks to haul freight along routes
that spanned these interconnected rail systems. As a
result, the MMA and the Irving Railroads needed a
means to coordinate the payments that they each would
be owed for the charges that customers would be billed
for shipping freight via these rail systems.
The MMA is a participant in the Interline Settlement System (“ISS”). The ISS is a centralized clearinghouse that many railroads across the country use to
process payments for the charges that are made to customers that ship freight between interconnected rail
systems. These payments are often referred to as interline payments.
Under the ISS, the railroad that owns the rail system on which the freight traffic originates bills the entire freight charge to the customer that ships the
freight. The billing railroad does so even though that
charge is based in part on the fact that the freight has
traversed for some part of its journey a rail system that
the billing railroad does not own. To account for this
fact, the ISS provides that the billing railroad will,
within a certain period of time, pay the appropriate
share of the payment for that freight charge to each
railroad that owns one of the interconnected rail systems through which the freight traveled.
The problem that the Irving Railroads and the
MMA encountered was that, unlike the MMA, the Irving Railroads did not participate in the ISS. That was
so in large part because of the resources and expertise
that the Irving Railroads would have needed to partici-

4a
pate in the ISS and in part because the Irving Railroads did not want to duplicate the efforts of the MMA
and other connecting railroads that were ISS participants. Thus, the MMA and the Irving Railroads needed to devise a payment processing system of their own.
The parties’ solution to this problem took the form
of an agreement that they entered into with each other
in 2003. The parties refer to this agreement, which
took advantage of the MMA’s role as an ISS participant, as a “swap” arrangement.
The agreement accounted for different scenarios.
The first scenario concerned the situation in which a
customer’s freight originated on the rail system of the
MMA or of the Irving Railroads and then interchanged
with the other rail system. In that situation, the
agreement provided that the MMA would bill the customer directly for the full charge for shipping that
freight, even though the charge to that customer was
based, in part, on the freight traveling via rail systems
that the MMA did not own and operate but that were
interconnected with the MMA’s rail system. The second scenario concerned the situation in which the
freight originated with the rail system of another ISSparticipating railroad—and thus originated on neither
the MMA’s nor the Irving Railroads’ rail systems—but
subsequently passed through the MMA’s and the Irving Railroads’ rail systems. In that event, under the
agreement, the MMA would collect from the billing
railroad its share of the payment for the charge that
the customer had been billed by the railroad that
owned the originating rail system. In addition, per the
agreement, the MMA would collect from the billing
railroad the share of the payment for the charge to the
customer shipping the freight that represented the
share of that payment due to the Irving Railroads for

5a
the freight having been shipped, in part, via their rail
systems.
As to each of these scenarios, the agreement specified how the Irving Railroads would receive from the
MMA their share of the payment for the charge to the
customer for shipping the freight that the MMA would
collect. The agreement provided that, within a discrete
number of days of the Irving Railroads’ handling of
freight traffic for which the MMA was responsible for
collecting payments either directly from the customer
that had shipped the freight or from the billing railroad,
the MMA would transfer to the Irving Railroads their
share of those payments. Specifically, the agreement
stated that the Irving Railroads would submit an invoice every Wednesday “for the seven days ending
with the second preceding Friday,” and that the MMA
should pay the Irving Railroads “within 21 days from
receipt of the invoice.” The railroads referred to this as
a 33-day deadline for the MMA making the payment,
apparently because that was how long the MMA would
have, under these terms, to pay the Irving Railroads
their share of the payment charged to a customer who
shipped freight with the Irving Railroads’ rail systems
from the time that such customer made such a shipment.
The agreement addressed one other circumstance
that bears on the issues that we confront here. This
circumstance arose from the fact that the Irving Railroads’ affiliates were among the customers that would
ship freight through the MMA’s rail system. These affiliates are several paper companies in the region: Irving Pulp and Paper, Limited; Irving Paper Limited;
and J.D. Irving, Limited; or, collectively, “the Irving
Paper Companies.”

6a
The agreement provided that the Irving Paper
Companies would transfer the payments that they
owed to the MMA for their use of its rail system at the
same time as the MMA transferred to the Irving Railroads their share of the payments that the MMA was to
receive directly from other customers, or from the billing railroad through the ISS, for customers having
shipped freight through the Irving Railroads’ rail systems. In this way, the agreement permitted the Irving
Paper Companies to withhold payment to the MMA if
the MMA failed to transfer to the Irving Railroads
their share of the payments charged to customers for
having shipped freight via their rail systems.
In practice, the payments that the Irving Paper
Companies owed the MMA usually dwarfed the share
of the payments that the MMA owed to the Irving
Railroads for customers’ use of their rail systems. The
arrangement thus provided some assurance to the Irving Railroads that they would be paid their share of
the payment for the charge to the shipping customer
that the MMA was responsible for collecting, given
what the MMA stood to lose from not transferring to
the Irving Railroads what they were owed for freight
having traveled by means of their rail systems.
The agreement that the parties hammered out appeared to serve them well until sometime in 2012. At
that point, however, the MMA and the Irving Railroads
began hauling a significant volume of crude oil to refineries in St. John, New Brunswick, across their interconnected rail systems.
Importantly, the jump in the volume of crude
meant that, in the course of the parties’ regular swap of
payments, the amount of funds that the MMA owed to
the Irving Railroads typically would exceed the amount

7a
of funds that the Irving Paper Companies owed to the
MMA. But, this new development also created the following practical problem.
Payments for the charges to customers for making
these oil shipments were processed through the ISS. It
would typically take 45 to 60 days after the MMA handled the railcars for a given shipment of freight for the
MMA to receive the ISS payments that it was owed for
charges to customers that were billed, pursuant to the
ISS, by the railroad on which the oil shipment originated. That period of time exceeded the amount of time
that it would typically take for the MMA to receive,
pursuant to the agreement, payment for charges for
which it directly billed customers.
Thus, in practice, the MMA usually received payments that included the Irving Railroads’ share of the
payment for the charge to a customer for an oil shipment about 45 to 60 days after the Irving Railroads
handled the shipment. The result was that the MMA
had trouble ensuring that the Irving Railroads received
their share of the payment for the charge to the customer for that oil shipment within the 33-day period
that the swap arrangement had specified.
To account for this new difficulty occasioned by the
oil shipments to St. John, the parties, in July of 2012,
modified the swap arrangement. The new agreement
carved out from the old one any payments that were
attributable to freight traffic originating on a railroad
other than the MMA or the Irving Railroads—in other
words, payments contemplated by the second scenario
addressed in the swap arrangement. Thus, the new
agreement necessarily carved out from the old one
those payments that were owed to the Irving Railroads
in consequence of charges to customers for oil ship-

8a
ments going to St. John, as none of those shipments
originated on the rail systems of either the MMA or the
Irving Railroads.
Under the new agreement, moreover, the Irving
Railroads authorized the MMA to pay them their share
of any carved-out payments that the MMA collected up
to five days after the MMA had done so. The new
agreement otherwise left the old one in place, save for
one additional modification that the parties made to it.
Under the new agreement, payments for charges to
customers for freight shipments that originated on the
rail systems of the Irving Railroads or the MMA, which
were contemplated in the first scenario addressed by
the swap arrangement, would be paid in accord with
the terms of the original swap arrangement, except
that the MMA would be required to pay the Irving
Railroads their share of the charge to a customer for
any such freight shipment that the MMA was to collect
within 30 days of handling the freight.
The modified version of the agreement remained in
place through July of 2013. At that time, though, there
was yet another new development, and it is that new
development that most directly led to the dispute that
is now before us.
In that month, an MMA train hauling 72 cars filled
with crude oil derailed in Lac-Mégantic, Québec. The
derailment led to several explosions, killed 47 people,
caused severe property damage, and required a major
environmental response effort.
In consequence, the MMA became insolvent and
petitioned the United States Bankruptcy Court for the
District of Maine for Chapter 11 bankruptcy on August
7, 2013. Soon thereafter, the Irving Railroads filed the

9a
claims with the Bankruptcy Court that are now before
us.
The claims seek to recover payments that the Irving Railroads contend are owed to them by the MMA
for “[f]reight services provided to the Debtor in connection with interline rail shipments.” The claims, in
other words, seek payments that represent what the
Irving Railroads assert is their share of the payments
for the freight charges to customers that the MMA was
responsible for collecting but that the MMA had yet to
pass on to the Irving Railroads. In this respect, the
claims seek recovery not only of the Irving Railroads’
share of payments that the MMA was responsible for
collecting that were tied to charges to customers for
their oil shipments to St. John but also the Irving Railroads’ share of payments that the MMA was responsible for collecting that were tied to charges to other customers for having shipped other types of freight via, in
part, the Irving Railroads’ rail systems.
The Irving Railroads asserted that the claims for
the payments at issue were entitled to priority under
11 U.S.C. § 1171(b) as “Six Months Rule” claims. The
trustee of the bankruptcy estate, Robert J. Keach,1 objected. He argued that the claims should be treated as
general, unsecured claims and thus should not be given
priority under § 1171(b) as Six Months Rule claims.
The Bankruptcy Court agreed with the Irving
Railroads and held that the claims were entitled to priority pursuant to § 1171(b) because they were Six
Months Rule claims. Keach appealed to the BAP,
1

Per the liquidation plan approved by the U.S. District Court
for the District of Maine, Keach is no longer the trustee, and is
instead the “estate representative of the post-effective date estate.”

10a
which affirmed. He then moved for reconsideration of
the issue in front of the Bankruptcy Court, which denied the motion and again held that the claims at issue
here were priority claims under § 1171(b).
At that juncture, the parties jointly requested
permission from this Court to appeal both orders of the
Bankruptcy Court directly.
See 28 U.S.C.
§ 158(d)(2)(A). We allowed the appeal, which is now before us.
II.
We ordinarily do not defer to the district court or
to the BAP in reviewing a bankruptcy court’s decision.
See In re Vázquez Laboy, 647 F.3d 367, 373 (1st Cir.
2011). Thus, “[o]ur review of the bankruptcy court’s
decision is de novo, though we will only upset the
court’s factual determinations in the case of clear error.” Id.
III.
This appeal turns, at least initially, on the proper
interpretation of a nearly 40-year-old precedent from
this Circuit. It thus presents a pure question of law,
which we review de novo.
The precedent in question holds, the parties agree,
that the Bankruptcy Code at the time of that decision
impliedly incorporated what is known as the Six
Months Rule via one of its provisions. The parties further agree that, by virtue of that precedent, claims by
creditors that qualify as Six Months Rule claims were
entitled to priority status under the Bankruptcy Code
at that time even if those claims otherwise would not
have been entitled to such status.

11a
The precedent in question is In re Boston & Maine
Corp. (Boston & Maine II), 634 F.2d 1359 (1st Cir.
1980). It addressed when certain claims by creditors
against a debtor railroad were entitled to priority status under a provision of the Bankruptcy Code, 11
U.S.C. § 205(b) (1976), that is no longer operative. Id.
at 1366.
That provision of the Bankruptcy Code, however,
was a precursor to the one that is our concern in this
appeal: § 1171(b). By the time that Boston & Maine II
was decided, moreover, § 1171(b) had been enacted.
And, notably, Boston & Maine II expressly recognized
that § 1171(b) was “the same in substance” as § 205(b).
634 F.2d at 1366 n.15; see also id. at 1379 n.35 (“The
provision enacted as 11 U.S.C. [§] 1171(b) … substantially continues the language of [§ 205(b)].”).
Thus, the parties proceed in this case on the understanding that Boston & Maine II’s analysis of § 205(b)
applies equally to § 1171(b), such that, if Boston &
Maine II’s analysis of § 205(b) would be controlling if
§ 205(b) were still operative, then that same analysis
applies to § 1171(b). We proceed on that same understanding in analyzing Boston & Maine II and its significance to this appeal.
In construing § 205(b), Boston & Maine II explained that the Six Months Rule was the name for the
more-than-century-old practice of courts in reorganization proceedings granting priority status to certain
kinds of claims that creditors brought against railroads
in receivership but that otherwise would not have been
entitled to such privileged status. See 634 F.2d at 1366.
Boston & Maine II then held that § 205(b) was best
construed to have, albeit impliedly, incorporated the
Six Months Rule. Id. Boston & Maine II thus held

12a
that a creditor’s claim against a railroad in bankruptcy
that otherwise would not qualify for priority status under the Bankruptcy Code would so qualify, per § 205(b),
if the Six Months Rule encompassed it. See id.
Boston & Maine II explained that, just as the name
for the Six Months Rule suggests, and in accord with
the past practice on which the rule is based, there was a
temporal limitation on how old a debt could be in order
for a claim to recover payment for it to be given priority pursuant to § 205(b) as a Six Months Rule claim. See
id. at 1379. This temporal limitation ensured that priority status for claims encompassed by the Six Months
Rule would “extend[] backward to the period preceding
reorganization” only “to the extent necessary to assure
that there is continuity in the payment of indispensable
operating expenses … so long as the current expenses
of the pre-reorganization period … are not so dated as
to forbid the conclusion that they are in fact current.”
Id. Boston & Maine II explained, however, that, despite the Six Months Rule’s name, “six months is not an
inflexible time limit” for a claim to qualify as a Six
Months Rule claim. Id. Thus, some claims to recover
payments for debts of an older vintage might qualify,
too. Id.
For present purposes, there is no dispute between
the parties that the claims for which the Irving Railroads seek priority status as Six Months Rule claims
under § 1171(b) fall within the temporal scope of the
Six Months Rule. There is a threshold dispute, though,
over whether Boston & Maine II properly defined the
substantive scope of the Six Months Rule that, in light
of longstanding practice, it had held that § 205(b) impliedly incorporated. Thus, our analysis begins with
that dispute.

13a
The dispute arises because Keach contends that
Boston & Maine II misconstrued the Six Months Rule
in a manner that makes it far broader than it is. He
then contends that we must depart from Boston &
Maine II’s holding on that score and that, once we do,
we must reverse the Bankruptcy Court’s ruling, because the claims at issue here cannot in that event qualify as Six Months Rule claims.
As we will explain, we reject Keach’s contention
that, because Boston & Maine II (in his view) erroneously defined the substantive scope of the Six Months
Rule, we are not bound by Boston & Maine II’s construction of it. We also reject Keach’s argument that,
even pursuant to the test set forth in Boston & Maine
II, the type of claims that the Irving Railroads seek to
recover are categorically ineligible for Six Months Rule
priority. However, even though we reject Keach’s
more wide-reaching challenges to the Bankruptcy
Court’s priority finding, our work is by no means done.
Instead, we also must address Keach’s various casespecific fallback challenges, in which he argues, respectively, (1) that the Bankruptcy Court erred in describing the test that Boston & Maine II set forth for determining whether a claim qualifies as a Six Months
Rule claim and (2) that, even if the Bankruptcy Court
did not so err, it nonetheless erred because the record
fails to support its findings that the claims at issue
qualified as Six Months Rule claims under that same
test. But, before we explain why those case-specific
fallback arguments fail to persuade, first things first.
A.
Keach’s threshold challenge to Boston & Maine II’s
construction of the substantive scope of the Six Months
Rule zeroes in on the fact that Boston & Maine II held

14a
that the Six Months Rule reflects “two essentially different principles, neither of which limits the operation
of the other.” 634 F.2d at 1377. Keach argues that,
properly understood, the Six Months Rule in fact reflects only the first of the two principles that Boston &
Maine II described that rule as reflecting. Thus, Keach
contends, even if § 1171(b) does encompass the Six
Months Rule, that provision may not be properly construed to encompass the expansive version of it that
Boston & Maine II describes.
This contention is critical to Keach’s argument.
The parties agree that the claims at issue here qualify
as Six Months Rule claims—insofar as they do—only
under the second of the two independent principles that
Boston & Maine II described the Six Months Rule as
reflecting. Thus, if Keach is right that Boston & Maine
II was wrong to construe the Six Months Rule to reflect that second principle, then he is right that the
claims at issue here cannot qualify as Six Months Rule
claims.2
As we will explain, however, we reject Keach’s contention that we are not bound by Boston & Maine II’s
holding that the Six Months Rule reflects that second
principle, given our duty to adhere to our prior prece2

The Irving Railroads contend that this argument has been
waived. But, while Keach did repeatedly concede to the Bankruptcy Court and the BAP that there was no diversion requirement
under the Six Months Rule, any argument to the contrary would
have been hopeless given the precedent we describe. Thus, because there would have been no reason for Keach to argue this
point in front of the lower courts, we decline to treat his argument
as waived. See Bennett v. City of Holyoke, 362 F.3d 1, 7 (1st Cir.
2004) (“[W]e will excuse a party for failing to raise a defense …
when the defense, if timely asserted, would have been futile under
binding precedent.”).

15a
dent under the law-of-the-circuit doctrine. See United
States v. Holloway, 630 F.3d 252, 258 (1st Cir. 2011). To
explain why we reach that conclusion, we begin by describing what Boston & Maine II held with respect to
each of the two principles. We then consider Keach’s
arguments for why we should not follow Boston &
Maine’s II’s holding that the Six Months Rule reflects
the second of those two principles.
1.
Boston & Maine II traced the first principle that it
held that the Six Months Rule reflected to the late
nineteenth century United States Supreme Court
precedent of Fosdick v. Schall, 99 U.S. 235, 253 (1878).
Boston & Maine II read that precedent to support the
conclusion that, in general, a debtor railroad in bankruptcy “must restore to operating creditors revenues
[that were] diverted” from a current expense fund to
pay off the railroad’s mortgagees before the railroad
entered into bankruptcy. 634 F.2d at 1377 (citing
Fosdick, 99 U.S. at 253).
Boston & Maine II did not describe the precise
scope of this Fosdick-based diversion requirement.
But, Boston & Maine II did clearly hold that claims by
creditors that satisfy the requirement that the debtor
railroad had engaged in a diversion of revenues from a
current expense fund to mortgagees may qualify for
priority status in some circumstances, per the longrecognized Six Months Rule. Specifically, Boston &
Maine II made clear that such claims could so qualify
so long as those claims were also for the recovery of
debts that the debtor railroad incurred within the relevant six-months window prior to its entering bankruptcy and so long as the debtor railroad had been expected

16a
to pay those debts out of current operating expenses.
See id. at 1368-69, 1380, 1382.
Because the parties agree that no such diversion of
funds occurred here, Keach understandably has little to
say about what Boston & Maine II held with regard to
this first principle. Instead, he trains his focus on what
Boston & Maine II had to say about the second principle that it held that the Six Months Rule reflected. After all, it is because Boston & Maine II held that the
Six Months Rule also reflected that second principle,
and thus not only the Fosdick-based principle, that the
Bankruptcy Court held that the claims at issue here
qualified as Six Months Rule claims under Boston &
Maine II even though they cannot satisfy the Fosdickbased diversion requirement.
Boston & Maine II traced this second principle to a
different late nineteenth century United States Supreme Court case from Fosdick. That case was Miltenberger v. Logansport, C. & S.W.R. Co., 106 U.S. 286
(1882).
Boston & Maine II read Miltenberger, along with
other precedents that aligned with its reasoning, to
elaborate on the Six Months Rule in a manner that accounted for the fact “that a ‘railroad is authorized to be
constructed more for the public good to be subserved,
than for private gain.’ ” Boston & Maine II, 634 F.2d at
1377 (quoting Barton v. Barbour, 104 U.S. 126, 135
(1881)). Boston & Maine II further construed the Six
Months Rule, based on its reading of the Miltenbergerbased line of precedent, to encompass claims for payment of debts incurred by the debtor railroad if, when
those debts were incurred, “a stoppage of the continuance of such business relations would be a probable re-

17a
sult … of nonpayment.” Id. (quoting Miltenberger, 106
U.S. at 312).
Thus, based on this reading of the import of the
Miltenberger-based line of authority, Boston & Maine
II held that creditors need not show a diversion by the
debtor railroad of operating revenues from operating
expenses to pay a mortgagee to show, as the Fosdick
principle otherwise would require, that their claims
merited Six Months Rule priority under the Bankruptcy Code. See id. at 1380. Rather, Boston & Maine II
explained that, per its understanding of the logic of the
Miltenberger line of precedent, claims to recover payments from debtor railroads for services that resulted
in the debtor railroad incurring certain critical expenses also could qualify as Six Months Rule claims, despite
the absence of any showing by a creditor that would
satisfy the Fosdick-based diversion requirement. Id. at
1382.
To be sure, consistent with Keach’s contention
about the proper construction of the Six Months Rule,
other courts had at the time of Boston & Maine II read
Miltenberger differently from how Boston & Maine II
read it. These courts treated Miltenberger as addressing a different rule applicable to railroad receiverships
than the Six Months Rule, the “Necessity of Payment
Rule,” and thus not to be addressing the Six Months
Rule at all. See, e.g., In re N.Y., New Haven & Hartford R.R. Co., 278 F. Supp. 592, 602 n.15 (D. Conn.
1967), aff’d, 405 F.2d 50 (2d Cir. 1968) (critiquing courts
that read Miltenberger as a Six Months Rule case for
having “inexplicably merged the two rules by making
necessity of payment a requirement of the six months
rule and eliminating diversion as a requirement for” the
Six Months Rule).

18a
Boston & Maine II itself recognized the difference
between the Six Months Rule and the Necessity of
Payment Rule. It explained that the Necessity of
Payment Rule “does not confer rights on claimants”
like the Six Months Rule. 634 F.2d at 1382. Instead,
the Necessity of Payment Rule “reflects the existence
of a judicial power to authorize trustees in reorganization to pay claims where such payment is exacted as
the price of providing goods or services indispensably
necessary to continuing the rail service” even though
these trustees did not receive court approval to pay
such expenses ex ante. Id.
But, Boston & Maine II observed that Miltenberger used “ambigu[ous] … language” in characterizing the nature of the rule that Miltenberger was setting
forth with respect to whether it concerned the Six
Months Rule or only the Necessity of Payment Rule.
Id. at 1378. And, further, Boston & Maine II rejected
an interpretation of Miltenberger that read it, or the
subsequent Supreme Court precedent applying it, to be
solely addressing the scope of the Necessity of Payment Rule. Id. Instead, Boston & Maine II held both
that the Necessity of Payment Rule was a “distinct …
principle” from either the Fosdick-based diversion
principle or the Miltenberger-based principle concerning nonpayment of debts arising from a debtor railroad’s necessarily incurred expenses and that the Six
Months Rule reflected, in part, this latter, Miltenberger-based principle. Id. at 1382. Accordingly, Boston & Maine II held that the principle emerging from
Miltenberger was not merely one that would allow a
court to sanction certain expenditures made by a railroad receiver after the fact pursuant to the Necessity
of Payment Rule, but also a priority rule “provid[ing]
for payment of claims on the same basis and from the

19a
same operating income as administration expenses”
pursuant to the strictures of the Six Months Rule. Id.
at 1382.
Of course, under Boston & Maine II, claims based
on this Miltenberger principle—no less than claims
based on the principle drawn from Fosdick—qualify as
Six Months Rule claims only if they seek the recovery
of a payment for a debt that the debtor railroad incurred within, roughly, six months of the debtor railroad petitioning for bankruptcy. See id. at 1378-79.
And, further, under Boston & Maine II, such claims
qualify as Six Months Rule claims on the basis of this
second principle only if the creditor expected that it
would be paid for this debt from the debtor railroad’s
operating revenues and not in reliance on the railroad’s
general credit. Id.
But, the key point for purposes of assessing
Keach’s threshold challenge is that Boston & Maine II
construed the Six Months Rule, as codified in § 205(b),
to be rooted in more than a concern about diversion of
funds, per the Fosdick principle. Instead, based on the
Miltenberger line of authority, Boston & Maine II construed the Six Months Rule also to reflect a concern
about ensuring equal treatment of claims that sought
the recovery of payments for expenses that were of sufficient importance to the debtor railroad to make them
distinct from claims that sought recovery for payment
for the debtor railroad’s less critical expenses.
Boston & Maine II explained in this regard that
claims of this Miltenberger-derived sort are “inevitably
… indistinguishable from and essentially contemporaneous with expenses paid by the railroad before reorganization, and will be indistinguishable from currently
paid administration expenses” during the reorganiza-

20a
tion period.3 Id. (emphasis added). In this way, Boston
& Maine II construed the Six Months Rule as one that
aims, by expanding the types of claims entitled to priority, to “eliminate[]” “[t]he inequity in treatment arising
out of the accidental circumstance of non-payment before the filing of the petition” of creditors’ claims. Id. at
1379. For, Boston & Maine II indicates, claims that
qualify as Six Months Rule claims seek recovery for
debts arising from expenses that are at least as necessarily incurred by the debtor railroad as are the debtor
railroad’s administrative expenses, and claims by creditors to recover debts arising from those expenses of the
debtor railroad do receive priority under the Bankruptcy Code. Id.
In addition to tracing the Six Months Rule back to
the Miltenberger line of authority, Boston & Maine II
also set forth a three-prong test for determining
whether a creditor’s claim qualifies for priority status
under the Bankruptcy Code as a Six Months Rule
claim. Notably, that three-prong test does not include
any requirement that the creditor satisfy the diversion
requirement that a creditor would have to meet if Boston & Maine II reflected only the Fosdick-based principle. See id. at 1378. The test instead sounds in the
necessity-based, equal-treatment-aiming principle that
Boston & Maine II derived from the Miltenberger line
of authority. Specifically, under the test that Boston &
Maine II announced, a claim falls within the scope of
the Six Months Rule so long as:
(1) it represents a current operating expense
necessarily incurred, (2) was incurred within
3

Certain expenses incurred by the bankruptcy estate are
deemed to be “administrative expenses,” 11 U.S.C. § 503(b), and
entitled to priority, see id. § 507(a)(2).

21a
six months before the reorganization petition
was filed, and (3) the goods or services were delivered in the expectation that they would be
paid for out of current operating revenues of
the railroad, and not in reliance on the road’s
general credit.
Id.
Before we circle back to Keach’s challenge to the
way that Boston & Maine II construed the Six Months
Rule, two further points about Boston & Maine II’s
construction of the Six Months Rule warrant further
elaboration, as each of these points figures prominently
in some of Keach’s fallback challenges. We thus briefly
address each of those points here.
The first of these points concerns the fact that the
Boston & Maine II test emphasizes the critical nature
of the expense of the debtor railroad that gives rise to
the creditor’s claim, as that expense must be an expense that is “necessarily incurred.” Id. Or, as Boston
& Maine II also phrased it, the claim must be one to
recover a debt arising from an expense “for a service or
supply indispensable to the maintenance and operation
of the railroad.” Id.
Significantly, however, the test does not turn on
whether “the claimant has the naked power to exert
economic duress” over the debtor. Id. Instead, Boston
& Maine II clarifies that the test focuses on whether
the claim at issue “represent[s] indebtedness for ordinary and necessary current operating expenses indispensable to continued rail service of the kinds being
paid currently as expenses of administration.” Id. at
1380 (emphasis added). For, Boston & Maine II makes
clear, creditors that failed to receive payment for such
debts only due to the relatively temporally proximate

22a
“intervention of the reorganization petition before expiration of the ordinary billing and payment period,”
id., possess a “superior equity” as compared to other
unsecured creditors of the debtor railroad, S. Ry. Co. v.
Carnegie Steel Co., 176 U.S. 257, 285 (1900), no less
than do those creditors that are owed administrative
expenses. In that respect, Boston & Maine II’s rejection of a “naked duress” test of necessity accords with
its equal-treatment aims.
Second, the third prong of the Boston & Maine II
test contains an important limitation apart from that
imposed by the “necessarily incurred” prong on the capacity of claims by creditors of debtor railroads to qualify as Six Months Rule claims. Per the third prong of
its test, Boston & Maine II makes clear that creditors
who “intention[ally] exten[ded] … credit to the railroad,” and thus whose contracts with the railroad presumably reflect the risk of the railroad’s default, are
taken to have assumed the risk of non-payment in their
extension of credit. Boston & Maine II, 634 F.2d at
1380. Thus, under the Boston & Maine II test, that
class of creditors is not entitled to priority in bankruptcy under the Six Months Rule, no matter that the rule
would otherwise encompass claims brought by that
class of creditors. Id. at 1378.
2.
With this background in place, we are now well positioned to see the problem with Keach’s threshold contention that Boston & Maine II confused the Six
Months Rule with the Necessity of Payment Rule and
that Boston & Maine II therefore erred in holding that
the Six Months Rule encompassed a class of claims that
could not satisfy a Fosdick-based diversion requirement. See id. at 1382. The problem is that, as the fore-

23a
going review makes clear, Boston & Maine II clearly
did recognize that the Six Months Rule could encompass claims that could not satisfy that diversion requirement, and we are bound as a three-judge panel to
follow the law-of-the-circuit doctrine, which dictates
that “newly constituted panels ordinarily are constrained by prior panel decisions directly (or even
closely) on point.” Holloway, 630 F.3d at 258 (quoting
United States v. Guzmán, 419 F.3d 27, 31 (1st Cir.
2005)).
Keach is right that there are two exceptions to this
rule of fidelity to our prior precedent. We may deviate
from a prior panel’s treatment of an issue where the
“existing panel decision may be undermined by controlling authority, subsequently announced,” Guzmán, 419
F.3d at 31 (quoting Williams v. Ashland Eng’g Co., 45
F.3d 588, 592 (1st Cir. 1995)), and, under “hen’s-teeth
rare” circumstances, we may do so where “authority
that postdates the original decision, although not directly controlling, may nevertheless offer a compelling
reason for believing that the former panel, in light of
new developments, would change its collective mind,”
id. But, Keach points to no authority post-dating Boston & Maine II, and, given the authority he does cite,
we do not see how this is the exceptionally rare circumstance that would trigger the law of the circuit’s second
exception.4
Keach points first to subsequent statutory developments—particularly, the codification of “paradigmat4

For the purposes of this case, we set aside any additional
limitations that might apply due to principles of statutory stare
decisis. See Kimble v. Marvel Entm’t, LLC, 135 S. Ct. 2401, 2409
(2015) (“[S]tare decisis carries enhanced force when a decision …
interprets a statute.”).

24a
ic” Six Months Rule-like claims elsewhere in the Bankruptcy Code, see, e.g., 11 U.S.C. § 503(b)(9) (granting
priority to claims for the value of goods received by the
debtor up to 20 days before filing). He contends that
these developments should cause us to revisit Boston &
Maine II’s holding that the Six Months Rule that it
found incorporated into § 205(b) reflects more than the
Fosdick-based principle and thus that claims need not
meet the diversion requirement set forth in Fosdick to
qualify as Six Months Rule claims.
But, these enactments tell us nothing about what
Congress meant in 1978 when it enacted § 1171(b). See
Bruesewitz v. Wyeth LLC, 562 U.S. 223, 242 (2011)
(“Post-enactment legislative history … is not a legitimate tool of statutory interpretation.”).
In fact,
§ 1171(b) remains on the books without Congress having made any relevant modifications to it in the interim.
But cf. Bankruptcy Amendments and Federal Judgeship Act of 1984, Pub. L. No. 98-353, § 522, 98 Stat. 333,
388 (1984) (modifying § 1171(b) to change “such priority” to “the same priority”).
Keach also points to a variety of out-of-circuit cases
that he argues read the Supreme Court’s precedent to
impose a Fosdick-based diversion requirement for
claims to qualify as Six Months Rule claims. See, e.g.,
Alco Prods., Inc. v. Trs. of Prop. of N.Y., New Haven
and Hartford R.R. Co. (In re N.Y., New Haven & Hartford R.R. Co.), 405 F.2d 50, 52 (2d Cir. 1968). But, not
one of these precedents postdates Boston & Maine II.
Thus, for that reason alone, none supplies a basis, under
the law-of-the-circuit doctrine, for us to decline to adhere to what Boston & Maine II held in the relevant
respect.

25a
The result is that Keach cannot succeed in overturning the finding below that the claims at issue here
qualify for priority status under § 1171(b) as Six
Months Rule claims through his frontal assault on Boston & Maine II. Instead, if he is to succeed, he must
show that those claims fail to satisfy the test for identifying such claims that Boston & Maine II derived from
the Miltenberger line of precedent, rather than because
Boston & Maine II was wrong to derive a test from
that line of authority that allows claims to qualify as Six
Months Rule claims even when they do not seek to recoup funds diverted in the way that Fosdick contemplates. Accordingly, we now turn to his arguments on
that score.
B.
The first of the arguments of this kind that Keach
presses is quite sweeping in its own right, even though
it purports to take Boston & Maine II at its word. He
contends that the type of claims for which the Irving
Railroads seek priority status under § 1171(b) are by
their very nature—and without regard to the facts
found below—not encompassed by the Six Months
Rule, even under the three-prong Boston & Maine II
test.
To understand this contention, we need first to say
a bit more about the particular type of claim that we
understand Keach—at least for purposes of this aspect
of his argument—to agree is at issue here. That type of
claim is what is known as an interline claim, and it arises in the following way.
As this Court described in Matter of Boston &
Maine Corp. (Boston & Maine I), 600 F.2d 307, 308 (1st
Cir. 1979), interlining is the practice of interconnected

26a
railroads “loaning cars to one another rather than loading and unloading freight every time a shipment passes
onto rails belonging to a different road.” This practice,
by its nature, contemplates that there will be a system
in place by which the interlining railroads will coordinate payments between them. It is through that system that the interlining railroads account for the fact
that the customers who ship freight on these interconnected lines ship it across rail systems that are separately owned. Interline claims, then, are the claims
that creditor railroads bring against debtor railroads to
recover the interline payments that they are owed for
the services that they provided in connection with the
practice of interlining. See Boston & Maine II, 634
F.2d at 1361, 1369.
We understand Keach to agree, at least for the
purpose of contending that the claims at issue here can
never qualify as Six Months Rule claims even under the
Boston & Maine II test, that the claims asserted by the
Irving Railroads are properly treated as a species of
interline claim. Keach’s agreement to that proposition
is fundamental to this aspect of his challenge. He contends that the creditor railroads’ claims cannot satisfy
the test that Boston & Maine II set forth for qualifying
as Six Months Rule claims precisely because interline
claims, by their nature, never can.
To support that categorical contention, Keach argues that Boston & Maine II did not itself hold that interline claims could qualify as Six Months Rule claims
under its three-prong, Miltenberger-derived test, as he
contends that Boston & Maine II had no occasion to do
so, given the issues that arose on appeal in that case.
He then points to a variety of precedents from outside
this Circuit that he argues demonstrate that interline
claims are “per se general unsecured claims” that can-

27a
not receive priority in bankruptcy. Thus, he asks us to
follow these other precedents—out-of-circuit though
they are—and decide what he contends Boston &
Maine II did not have occasion to decide: that, even
under the three-prong test for defining Six Months
Rule claims that Boston & Maine II sets forth, interline
claims can never qualify as Six Months Rule claims.
We, however, read Boston & Maine II’s treatment
of interline claims differently from Keach. In consequence, we conclude that, once again, the law-of-thecircuit doctrine stands in the way of his argument.
1.
It is true that, as Keach argues, Boston & Maine II
did not expressly hold that the interline claims at issue
in that appeal were entitled to priority; it instead remanded for the District Court to identify a class of
creditors entitled to priority under the Miltenbergerderived three-prong test for determining whether a
claim qualifies as a Six Months Rule claim that Boston
& Maine II set forth. See Boston & Maine II, 634 F.2d
at 1382. However, Boston & Maine II read Miltenberger to support its conclusion that there is a separate,
non-Fosdick basis for Six Months Rule status, and
Keach concedes that this aspect of Boston & Maine II
was a holding. See id. Thus, we do not see how we can
square Boston & Maine II’s clear holding that the Six
Months Rule reflects the principle it attributed to Miltenberger with Keach’s contention that the specific class
of claims that Miltenberger identified as pertaining to
“indispensable business relations,” 106 U.S. at 312—
interline claims—are categorically ineligible for priority
under the Six Months Rule under the “necessarily incurred” prong of the Boston & Maine II test.

28a
Boston & Maine II makes clear that it read Miltenberger to establish, at the very least, that “interline
claims” can in some circumstances fall within “the class
of claims entitled to priority of payment” because the
“disastrous consequences of failing to pay” such claims
could include the possibility of “a stoppage of traffic interchange.” 634 F.2d at 1377-78. Moreover, Boston &
Maine II described Miltenberger as “defining the classes of claims payment of which was indispensable to the
business of the road.” Id. at 1377.
It is thus significant that Miltenberger expressly affirmed a railroad receiver’s authority to “pay indebtedness … to other connecting lines of road, in settlement of
… freight accounts and balances.” 106 U.S. at 308. In
fact, the Court there stated that “[i]t is easy to see that
… the payment of limited amounts due to … connecting
lines of road … for unpaid ticket and freight balances …
may well place such payments in the category of payments … entitle[d] … to be made a first lien.” Id. at 31112. What is more, in the critical passage of Miltenberger
that Boston & Maine II quoted, Miltenberger stated
that “non-payment” of the expenses there at issue—
interline payments—would produce the “probable result” of a “stoppage” of “indispensable business relations.” Boston & Maine II, 634 F.2d at 1370, 1377 (emphasis added) (quoting Miltenberger, 106 U.S. at 312).
Moreover, even if we were to treat as dicta Boston
& Maine II’s discussion of whether the nonpayment of
interline claims could interfere with indispensable
business relations, that dicta is of the carefully considered variety. Accordingly, it “must carry great weight,
and may even … be regarded as conclusive.” McCoy v.
Mass. Inst. of Tech., 950 F.2d 13, 19 (1st Cir. 1991) (alteration in original) (quoting Charles A. Wright, The
Law of Federal Courts § 58, at 374 (4th ed. 1983)).

29a
2.
Against this background, Keach’s invocation of a
number of out-of-circuit precedents that he asserts
support his argument that the Six Months Rule necessarily excludes interline claims as a categorical matter
does little to aid his cause. The simple point is that,
even if they do support Keach’s contention about the
nature of interline claims, Boston & Maine II cannot be
squared with them. But, it is also worth observing,
none of the non-controlling precedents on which he relies in fact raise meaningful questions about the correctness of Boston & Maine II’s treatment of interline
claims as the type of claims that could, in their nature,
qualify as Six Months Rule claims.
Keach is right that some out-of-circuit precedents
decided after Boston & Maine II include broad language that deems interline claims to be “general, unsecured” claims. See, e.g., Union Pac. R.R. Co. v. Moritz
(Matter of Iowa R.R. Co.), 840 F.2d 535, 545 (7th Cir.
1988). But, two of the ones that he cites deem interline
claims to be general unsecured claims only in the course
of rejecting other, distinct arguments that these claims
should receive special treatment in bankruptcy without
thereby purporting to address whether they might
qualify nonetheless as Six Months Rule claims. See id.
(rejecting an argument that interline claims should be
treated as being held in trust); In re Bangor &
Aroostook R.R. Co., 320 B.R. 226, 236, 240 (Bankr. D.
Me. 2005), aff’d, No. 01-11565, 2007 WL 607867 (D. Me.
Feb. 23, 2007) (similar).
In fact, while Iowa Railroad Co. does refer to interline claims as claims for “general, unsecured debts,” 840
F.2d at 545, the opinion also specifically recognizes that
“[c]ourts [have] applied the[] principles [of the Six

30a
Months Rule] … to interline balances,” id. at 537. And,
further, rather than disputing that conclusion of those
other courts, the Seventh Circuit accepts it and considers it to be evidence for its conclusion that “interline
balances are general, unsecured debts.” Id. Thus, Iowa
Railroad Co., in characterizing interline claims as ones
that seek recovery for general, unsecured debts, is not
at odds with Boston & Maine II’s characterizing the
subset of interline claims that seeks recovery of payments for debts incurred temporally close to the debtor
railroad’s bankruptcy as being capable of qualifying as
Six Months Rule claims.
Keach does point out that Iowa Railroad Co. reasoned that, because affording priority to interline-claim
creditors will necessarily penalize other creditors, those
other creditors will respond to the preference for interline-claim creditors by simply demanding more from
railroads in exchange for the services they provide. Id.
at 542. In other words, the court concluded, no matter
the priority rules, “in the end, someone bears the whole
risk, and shippers pay the full cost.” Id. And, on that
basis, Iowa Railroad Co. rejected the interline creditors’
argument in that case that prioritizing their claims,
based on the federal common law, was “essential to the
preservation of a national transportation system.” Id.
But, Boston & Maine II is not necessarily at odds
with Iowa Railroad Co. in that respect either. Boston &
Maine II expressly rejects a “naked power to exert economic duress” test for determining whether a creditor’s
claim that seeks to recover a debt that arises from an
expense that the debtor railroad necessarily incurred
qualifies as a Six Months Rule claim. 634 F.2d at 1378.
Boston & Maine II explains that the Six Months Rule
reflects in significant part an equal treatment principle.
The idea is to ensure that, because creditors with claims

31a
for administrative expenses are entitled to priority on
their claims, the sudden advent of bankruptcy does not
disadvantage certain pre-petition creditors who seek to
recover payments for debts arising from the expenses
necessarily incurred by the debtor railroad that are similar to administrative expenses. See id. at 1379; see also
11 U.S.C. § 503(b), 507(a)(2).
That leaves Keach with but one post-Boston &
Maine II case that accords with his view: In re
McLean Industries, Inc., 103 B.R. 424 (Bankr. S.D.N.Y.
1989). That out-of-circuit bankruptcy court case based
its conclusion on the fact that “Congress, in enacting
the Bankruptcy Code, expressly rejected a proposal
that debtor railroads be required to pay interline balances.” Id. at 426. The rejected statutory provision on
which that bankruptcy court relied, however, would
have immediately required a debtor railroad to pay all
pre-bankruptcy interline debts without any need for
court approval. See S. 2266, 95th Cong. § 1169 (1978);
see also Boston & Maine I, 600 F.2d at 313 (“The legislative history of this provision indicates that …. Congress chose … to place the timing of payment of [interline] claims exclusively in the discretion of the reorganization court.”). Thus, Congress’s choice not to enact a
special provision for interline claims reveals little about
whether Congress meant for creditors to receive the
weaker protection of the Six Months Rule via § 1171(b)
for the subset of interline claims that seek payment for
debts incurred by the debtor railroad sufficiently near
to the time of its bankruptcy to fall within the temporal
scope of the Six Months Rule. See Zucker v. Rodríguez,
919 F.3d 649, 660 (1st Cir. 2019) (“The fact that Congress rejected a provision about one thing tells us little
about what Congress intended in enacting a provision
about something else.”).

32a
We note, moreover, that the only other Court of
Appeals that Keach identifies as having read the Six
Months Rule to include a Miltenberger-based principle,
and not merely a Fosdick-based one, is the Fourth Circuit. See S. Ry. Co. v. Flournoy, 301 F.2d 847, 851 (4th
Cir. 1962). But, that Circuit has held that interline
claims may be entitled to priority status under the Six
Months Rule. Id. at 853-54. Thus, in addition to the
fact that Boston & Maine II itself cannot be squared
with the notion that interline claims are categorially
barred from qualifying as Six Months Rule claims, the
precedents that Keach relies on fail to indicate that it
was wrong in that regard.
3.
Keach does briefly suggest another reason to conclude that interline claims—as a class—cannot qualify
as Six Months Rule claims under Boston & Maine II’s
three-prong test. He contends, in this regard, that federal law required the Irving Railroads to allow the
MMA to interchange with their railroads and thus that
the payments that the MMA owed to them in consequence of their being interconnected are, inherently,
expenses that are not “necessarily” incurred.
As authority for this proposition, Keach cites to an
out-of-circuit district court case, Matter of Penn Central Transportation Co., 458 F. Supp. 1234 (E.D. Pa.
1978). There, the court stated in dicta that a similar
mandate “renders the necessity of payment rule”—
which, as we have explained, is an entirely different
rule from the Six Months Rule—“totally inapplicable.”
Id. at 1332 n.93. Keach then alleges that we conflated
the Necessity of Payment Rule with the Six Months
Rule in Boston & Maine II and that we therefore

33a
should read Penn Central’s dicta on the former rule to
apply to our caselaw concerning the latter one.
But, to the extent that this argument by Keach is
not waived for lack of development, see United States v.
Zannino, 895 F.2d 1, 17 (1st Cir. 1990), it necessarily
fails under the law-of-the-circuit doctrine if for no other
reason than that Penn Central was decided before Boston & Maine II. But, we should add, Boston & Maine
II itself recognized that “the interlining of freight cars
is mandatory under the Interstate Commerce Act.”
634 F.2d at 1362.
C.
Keach still is not done, however. Even accepting
that Boston & Maine II’s test is sound and that interline
claims are not categorically barred from qualifying as
Six Months Rule claims under that test, he asserts that
the ruling below as to these particular interline claims
cannot stand for three case-specific reasons. We thus
close out our consideration of this appeal by considering
each one of these more narrowly drawn challenges.
1.
Keach first contends that the Bankruptcy Court
erred because, at one point in its oral opinion, it stated
with regard to the Boston & Maine II test that “it is
sufficient [that] claims are for a current expense, goods
and services and bringing ordinary operation of the
rail.” Based on this language, Keach contends that the
Bankruptcy Court mistakenly required that the claims
at issue need only represent current expenses of the
debtor railroad to qualify as Six Months Rule claims.
He thus argues that the Bankruptcy Court effectively
dispensed with the necessity requirement that Boston
& Maine II set forth for discerning a claim as one that

34a
the Six Months Rule encompasses. As a result, he argues that, at the very least, the ruling below must be
vacated and remanded.
The Bankruptcy Court’s oral opinion, however, cited to Boston & Maine II and correctly described the
test that it set forth as requiring a showing that a claim
is for the recovery of a debt arising from “a current operating expense necessarily incurred.” (emphasis added). Moreover, the Bankruptcy Court’s written order
overruling Keach’s objections on this point confirmed
that the claims at issue concern debts arising from
“current operating expenses that were necessarily incurred by MMA in connection with its on-going operations.” (emphasis added). Thus, we see no reason to
attribute to the Bankruptcy Court the mistake that
Keach contends that it made.
2.
Keach next takes aim at the evidentiary basis for
the Bankruptcy Court’s ruling that, per the Miltenberger-derived test set forth in Boston & Maine II, the
claims are for debts arising from “current operating
expense[s] necessarily incurred.” Boston & Maine II,
634 F.2d at 1378 (emphasis added). Once again, we are
not persuaded.
Keach is right that Boston & Maine II held that Six
Months Rule claims must be “for a service or supply
indispensable to the maintenance and operation of the
railroad,” id. at 1378 (emphasis added), and he points us
to a variety of out-of-circuit cases that limit Six Months
Rule claims to those based on expenditures of that ilk,
see, e.g., Chicago & A.R. Co. v. U.S. & Mexican Tr. Co.,
225 F. 940, 945-46 (8th Cir. 1915). But, we do not agree
with Keach’s further contention that, because the evi-

35a
dence clearly showed that the MMA could have continued operating without interchanging with the Irving
Railroads, the Irving Railroads’ claims are not for the
recovery of payments for debts arising from “expense[s] necessarily incurred.” Boston & Maine II, 634
F.2d at 1378.
We have already noted that Boston & Maine II
made clear that “[t]he test is not whether the claimant
has the naked power to exert economic duress,” id. at
1378, and, to an extent, Keach recognizes this point.
For example, the Irving Railroads point out, Keach
acknowledged to the Bankruptcy Court that a creditor’s claim to recover about $7,000 based on repair costs
incurred by a debtor railroad would merit priority status under the Six Months Rule. He did so, moreover,
even though he recognizes that there may be no argument that this one repair expense to this one service
provider, standing on its own, was necessary to keep
the railroad going. That is because, as Keach admits in
his reply brief, the test is not “whether the specific
[claim] at issue,” if withheld, “would have forced a total
shutdown of operations.” Rather, he contends, “it is
the genre of the claim that is relevant to the analysis.”
Indeed, a focus on whether the claimant seeks
payment for a debt arising from an expense—the particular repair—that is independently essential to the
ongoing operation of the railroad would likely render
few if any claims indispensable. It would be the rare
repair that, in and of itself, would be so essential that
the railroad could not go without it.
Nevertheless, Keach contends that the interline
claims that are at issue here are not like those that seek
recovery of payments for debts arising from expenses
incurred by a debtor railroad to make repairs, because

36a
the very route on which the freight traveled that led
the claimants to be entitled to recovery for debts incurred by the MMA for the interline payments was
abandoned post-bankruptcy by the MMA. He argues
that, in consequence, these claims seek payments in
connection with expenses that cannot possibly have
been “necessarily incurred” by the MMA.
But, Keach offers no authority to support the proposition on which this argument necessarily rests: that
we must construe the words “indispensable” and “necessary” in Boston & Maine II to make the necessity to
the operation of the railroad of the particular route
over which the freight traversed itself determinative of
whether an expense incurred in operating that particular route was necessary or indispensable to the railroad’s operation. Nor do either Miltenberger or Boston
& Maine II require that we endorse such a proposition.
In Miltenberger, the Supreme Court affirmed the
receiver’s decision immediately to pay out freight balances that he deemed to be “indispensable to the business of the road,” and without which, “the business of
the road would suffer great detriment.” See 106 U.S. at
311. The Court found that it was “easy to see that …
the payment of limited amounts due to … connecting
lines of road … for unpaid ticket and freight balances”
could be so significant as to authorize such payment,
because “a stoppage of the continuance of [indispensable] business relations would be a probable result … of
non-payment.” Id. at 311-12. The Court at no point
conducted an inquiry into the necessity of any particular line to the railroad’s capacity to stay in business,
even if in a much-diminished state.
Similarly, Boston & Maine II read Miltenberger to
be “defining the classes of claims payment of which was

37a
indispensable to the business of the road.” Boston &
Maine II, 634 F.2d at 1377. Boston & Maine II then
went on to indicate, again based on Miltenberger, that
interline claims may fall into that class because the
“disastrous consequences of failing to pay … interline
claims” include “a stoppage of traffic interchange.” Id.
Boston & Maine II did not in so stating at any point
suggest that the necessity of making interline payments hinges on whether those interline payments
were made in connection with a route that itself is one
without which the railroad could not operate, even in a
much-reduced manner.
Keach’s suggested approach to defining “necessarily incurred” is also in tension with some of his own contentions. If the proper inquiry were focused on the necessity of the line to the debtor railroad’s operations
rather than on the necessity of the expense in consequence of the debtor railroad operating that line, then
it would be hard to see how claims for expenses the
debtor railroad incurred to pay for fuel, labor, or even
repairs could qualify as Six Months Rule claims insofar
as those expenses were incurred in connection with any
aspect of the operation of an important line for a debtor
railroad that the debtor railroad could jettison postbankruptcy and survive. Yet Keach portrays each of
those types of claims—whether concerning fuel, labor,
or repairs—as quintessential types of qualifying claims
without suggesting that their ability to qualify as Six
Months Rule claims depends on whether they seek recovery of debts that arise from expenses incurred by
the debtor railroad in connection with its operation of a
rail route without which the debtor railroad could not
remain a going concern.
That leaves, then, only the question whether, in operating the particular route at issue, the MMA neces-

38a
sarily incurred the expenses represented by the share
of the interline payments that the Irving Railroads
seek to recover with their claims. But, Keach does not
dispute that the record here adequately supports the
Bankruptcy Court’s finding that “the inability of MMA
to interchange traffic with the [Irving Railroads] on the
… ‘critical rail artery’ … between St. John and Montreal would have had a significant adverse effect on
MMA’s operations, including … the possible loss of
business with Irving as well as a reduction in revenue.”
Nor do we see how he could, given the testimony that
the Bankruptcy Court deemed credible from Ian Simpson, the General Manager for the Irving Railroads.
Simpson’s testimony, moreover, also supports the
Bankruptcy Court’s finding that “it would not be practical or economical” for the MMA to use an alternative
route to ship oil to St. John.5
Keach does cite to a number of cases that he contends emphasize that the bar for an expense to qualify
5

Keach at various points in his briefing suggests that the
MMA was only a “collection agent” for the Irving Railroads. If
Keach means to argue that the expenses incurred by the MMA
could not have been “necessarily incurred” because the Irving
Railroads could simply have bypassed the MMA and collected the
payments itself directly from the customers whose freight shipments traversed their lines, he fails to develop this argument and
has therefore waived it. See Zannino, 895 F.2d at 17. In any case,
this argument would ignore the Bankruptcy Court’s findings that
the MMA’s business at the relevant time depended in large part on
shipping oil toward St. John. Thus, we have difficulty seeing how
it would be clear error to find that the MMA’s payments to compensate the Irving Railroads for the services the Irving Railroads
performed in shipping the freight of customers were necessarily
incurred, as they compensated the Irving Railroads for a service
that was critical to the MMA’s operation of that key aspect of its
business at the time.

39a
as being “necessarily incurred” is a high one. But, most
of those cases neither elaborate on the contours of the
necessity test nor deal with facts analogous to the ones
presented here. See Commonwealth Edison Co. v.
Cont’l Nat. Bank & Tr. Co. of Chi., 93 F.2d 265, 266
(7th Cir. 1937) (determining that electricity used to operate a railroad’s “trains, lights and equipment” was
“essential to the operation of its road”); N.Y. Guar. &
Indem. Co. v. Tacoma Ry. & Motor Co., 83 F. 365, 368
(9th Cir. 1897) (deeming a cable rope “necessary” to a
street railroad because “[i]t is impossible to imagine a
case where anything was more necessary to keep [a]
portion of the street railway a going concern”); Cent.
Tr. Co. of N.Y. v. E. Tenn., V. & G.R. Co., 80 F. 624, 631
(6th Cir. 1897) (denying priority for advertising without
invoking the necessity test). And, one of these cases
even holds that legal expenses relating to “personal injury suits, collection actions, union contract disputes,
and employee claims” are “necessary to the continued
operation of the railroad.” In re Mich. Interstate Ry.
Co., Inc., 87 B.R. 921, 923 (Bankr. E.D. Mich. 1988). It
is hard to divine the metric by which the payment for
the legal services at issue there were necessary to the
operation of the debtor railroad but the payments that
the MMA had to make to the Irving railroads for the
freight services that they provided are not.
The Eighth Circuit did, in an additional case highlighted by Keach, hold that claims to recover payments
for debts arising from expenses incurred by a debtor
railroad to support the operation of its non-railroad
businesses are not eligible for priority. See Ill. Tr. &
Sav. Bank v. Doud, 105 F. 123, 127-28 (8th Cir. 1900).
But, Illinois Trust & Savings Bank merely stands for
the commonsense proposition that the necessity prong
of the test articulated in Boston & Maine II asks

40a
whether an expense was necessary for the operation of
the railroad’s rail system, not for other side businesses
operated by the railroad. Id.
That proposition, which follows from Boston &
Maine II’s conclusion that Miltenberger had established the important role that interline payments
played in facilitating effective rail service to the public,
see Boston & Maine II, 634 F.2d at 1377, does not conflict with the findings by the Bankruptcy Court regarding the interline claims in this case. The expenses were
incurred in connection with the operation of a rail route
rather than a side business, and, moreover, the Bankruptcy Court supportably found that the rail route itself was a critical one.
The remaining case that Keach cites, Chicago &
A.R. Co., does hold that evidence that the unpaid interline balances of a railroad “would disrupt [its] freight,
and be a serious detriment to [its] business” was insufficient to prove “that the preferential payment of the …
claim was … necessary to keep the … railroad a going
concern.” 225 F. at 946. But, Chicago & A.R. Co. based
its restrictive reading of the necessity prong of the Six
Months Rule on its conclusion that post-Miltenberger
decisions of the Supreme Court “so narrowly limit …
preferential claims” that if the then-current Court had
revisited the facts of Miltenberger, the creditors “would
be denied preference.” Id. at 945. Boston & Maine II,
however, precludes us from adopting the limited view
of Miltenberger’s precedential value that Chicago &
A.R. Co. recognized, because Boston & Maine II specifically considered and rejected the view of cases like
Chicago & A.R. Co. that read subsequent Supreme
Court precedent to have “reduc[ed] Miltenberger to a
… holding [of] the starkest economic duress form.”
Boston & Maine II, 634 F.2d at 1378; see also id. at

41a
1374 (describing Chicago & A.R. Co. as one of the cases
adopting this reading of Supreme Court precedent).
3.
The last of Keach’s more narrowly drawn arguments focuses, unlike the two others that we have just
considered, on the third prong of the Six Months Rule
test. That prong, as we explained earlier, concerns the
means by which the debtor railroad was expected to
pay the debt for which the creditor railroads’ claims
seek recovery. That prong does so by focusing not on
whether a claim is for payment of an expense that was
necessarily incurred by the debtor railroad but on
whether the creditor was expecting payment “out of
current operating revenues of the railroad.” Id. at
1378. If, instead of relying on such revenues, a creditor
made a payment “in reliance on the road’s general credit,” then it cannot obtain the benefit of priority under
the Six Months Rule. Id.
We note that, although Boston & Maine II did not
have occasion to address the issue, the presence of a
security arrangement might inform an inquiry under
the third prong of the Boston & Maine II test into
whether a claimant had expected to be “paid for out of
current operating revenues of the railroad.” Id. at
1378. As some courts have observed, a creditor’s insistence on such an arrangement might show that it
thought that payment from current operating revenues
was uncertain and thus that the creditor was not relying on those revenues for payment. See Lackawanna
Iron & Coal Co. v. Farmers’ Loan & Tr. Co., 176 U.S.
298, 316 (1900) (identifying the existence of a large “collateral security” as “a circumstance tending to show
that [the creditor] … relied upon the general credit of
the railroad company”); Commonwealth Edison Co., 93

42a
F.2d at 270 (noting that “evidentiary facts of other security taken” could establish a “lack of expectation or
intention that [the claimant] should be paid out of current earnings”).
Keach contends that, notwithstanding the contrary
findings of the Bankruptcy Court, the record precludes
the claimants from making the showing required by
this third prong of the Miltenberger-derived test that
Boston & Maine II sets forth. But, for the following
reasons, we do not agree. We begin by saying a bit
more about how we apply the third prong of the test.
We then explain why we conclude that the Bankruptcy
Court supportably found it met.
a.
As we have explained, the third prong of the Boston & Maine II test reflects a sensible intuition. The
Six Months Rule, as elaborated in Boston & Maine II,
is designed to protect providers of certain critical goods
and services who were expecting to be paid out of the
railroad’s current operating expenses in the ordinary
course of business. See 634 F.2d at 1378. Thus, it
makes sense that the Six Months Rule would not permit a creditor to reap the benefits of priority in bankruptcy if that creditor implicitly assumed the risk that
the debtor railroad would not remain solvent, say, by
hedging against that risk through a contract with interest terms that reflected its trust in the railroad’s
general financial health rather than an expectation of
being promptly paid out of the railroad’s current revenues in the normal course for debts arising from expenses necessarily incurred. See id. at 1379-80. Similarly, it makes sense that the Six Months Rule would
not protect a creditor who hedges against the risk of
nonpayment from operating expenses through a de-

43a
mand for security. See Lackawanna Iron & Coal Co.,
176 U.S. at 316.
But, despite the sensible intuition that the third
prong of the test reflects, it is not always easy to discern whether this prong has been met. As we have said
before, “reliance on the general credit of the railroad” is
somewhat of “an illusory concept,” Boston & Maine II,
634 F.2d at 1379, because of the wide variety of circumstances in which a party might expect payment from a
railroad. In fact, in accord with that observation, the
Bankruptcy Court recognized in this very case that it is
possible that a party “might well rely on both the current operating revenues of the railroad as well as its
general credit.”
Nevertheless, Boston & Maine II provides us with
some guidance as to how to draw this nebulous line.
Boston & Maine II provides that:
it will be for the reorganization court to determine … whether the non-payment reflects an
intentional extension of credit to the railroad,
or the intervention of the reorganization petition before expiration of the ordinary billing
and payment period, or some noncontractual
indulgence or inadvertence on the part of the
claimant, or deferment of payment on the part
of the railroad; and whether, if the transaction
giving rise to the claim had any credit term, it
was compatible with a general expectation of
payment from current receipts or indicated reliance on the railroad’s general credit.
Id. at 1380. In an early case elaborating on this constraint on Six Months Rule priority, moreover, the Supreme Court explained that among the factors to be
considered are “the amount of the debt, the time and

44a
terms of payment, and all other circumstances attending the transaction.” Carnegie Steel Co., 176 U.S. at
285. We thus apply this guidance in assessing the findings of the Bankruptcy Court that bear on this third
prong of the Boston & Maine II test.
b.
The Bankruptcy Court found here that the Irving
Railroads expected to be paid from current receipts of
the MMA and did not rely on the MMA’s general credit
or a security arrangement. To understand the finding,
it helps to recall some of the details of the swap arrangement that was in place as of 2013, which is the
year when all the debts for which the claims at issue
sought recovery were incurred.
By then, as we noted at the outset, the volume of
oil shipped across the rail systems of the Irving Railroads and the MMA to St. John had increased dramatically. As a result, the MMA typically owed the Irving
Railroads more in interline payments than the Irving
Paper Companies owed the MMA for shipping their
freight. The increased oil volume also meant that the
MMA at that time had difficulty meeting the timeline
for payment under the then-existing agreement between the parties.
In consequence, in 2012, the Irving Railroads and
the MMA carved certain payments out of their preexisting swap arrangement. Thus, based on the bifurcated agreement in place as of 2013, the Irving Railroads
were expecting to receive two types of relevant payments from the MMA.
First, the MMA owed the Irving Railroads payments for freight shipments on the rail system that
were to be collected by the MMA directly from the cus-

45a
tomer shipping the freight, namely payments for
freight shipments that originated on lines belonging to
either the Irving Railroads or the MMA. For these
shipments, in which MMA was the billing railroad, the
MMA would make them to the Irving Railroads at the
same time that the Irving Railroads’ affiliates, the Irving Paper Companies, would pay the MMA for what it
was owed for their freight having traveled, at least in
part, on its rail system. The MMA’s transfers to the
Irving Railroads would take place within 30 days of the
freight having been shipped.
Second, the MMA owed the Irving Railroads their
share of payments for charges to customers whose
freight shipments traversed the Irving Railroads’ rail
systems but did not originate on either those rail systems or the MMA’s rail system. After all, the MMA received through the ISS both its share of the payment
for the charge to customers for shipping that freight
and the Irving Railroads’ share.
The share of the payments that the MMA owed to
the Irving Railroads primarily related to shipments of
oil to St. John. Moreover, all payments for charges to
customers for oil shipments to St. John were payments
of this type.
The MMA had to send the Irving Railroads their
share of these payments within five days of the MMA’s
receipt of the payments that it collected through the
ISS. Due to the 45-to-60-day turnaround time for payments made to the MMA through the ISS, however, the
Irving Railroads could expect to wait up to 65 days to
receive their share of these payments.
In finding that, for both sets of these payments, the
Irving Railroads counted on the current operating revenues of the MMA for payment, the Bankruptcy Court

46a
relied on witness testimony that indicated that the Irving Railroads intended to avoid relying on the MMA’s
credit. In so finding, the Bankruptcy Court explained
that it “didn’t find anything in that deal or that arrangement that had incorporated common conditions of
the commercial credit, security interests, and the like.”
The Bankruptcy Court supportably relied in particular on testimony from Karl Hansen, the General
Manager of Corporate Credit and Financial for the Irving Paper Companies, who testified that the Irving
Railroads “absolutely” did not rely on the MMA’s general creditworthiness, but instead relied on the regularity of the ISS payments to the MMA. The Bankruptcy
Court similarly pointed to testimony from Ian Simpson,
the General Manager for the Irving Railroads, who testified that “[w]hen [the MMA] got paid, we were to be
paid.”
This testimony was consistent with the nature of
the swap agreement between the Irving Railroads and
the MMA after the payment timeframe was extended
in July 2012, which is the only relevant timeframe for
our purposes, given when the debts that the claims at
issue seek to recover were incurred. By then, the swap
arrangement had been modified to account for the
change occasioned by the oil shipments to St. John.
Nonetheless, the swap arrangement still required the
MMA to send the Irving Railroads their share of the
payments that the MMA collected within five days of
the MMA itself receiving the payments, and nothing in
the modified agreement suggests that the Irving Railroads received interest or any other compensation in
exchange for the additional risk they took on by accepting this extended delay. See Boston & Maine II, 634
U.S. at 1380 (asking whether a “credit term … was

47a
compatible with a general expectation of payment from
current receipts”).
It is true that, as Keach notes, under the modified
swap arrangement, the Irving Railroads could expect
to wait as long as 65 days to be paid what the MMA
owed with respect to at least some of what they were
owed. But, we find supportable on this record the
Bankruptcy Court’s conclusion that—notwithstanding
that delay—payments due to the Irving Railroads were
still tied to the MMA’s receipt of payments through the
ISS and therefore were made in reliance on the current
operating revenues of the MMA.
Notably, the Supreme Court has approved of affording priority to creditors based on contracts with
payment terms of three and four months. See Carnegie
Steel Co., 176 U.S. at 286-87 (describing the claimant’s
credit arrangement as “short credit given”). The payment terms that it has found to be indicative of a reliance on the general credit of a railroad, by contrast,
have been far lengthier than those that we confront
here. See Lackawanna Iron & Coal Co., 176 U.S. at
316-17 (holding that a “long period of credit”—a sixmonth repayment term that was renewable by the railroad—was, as part of a totality-of-the-circumstances
analysis, evidence that the debtor was relying on the
railroad’s general credit).
Indeed, the Bankruptcy Court recognized that, prior to 2012, when the swap arrangement still covered all
payments between the parties, Keach may have had a
“more powerful” argument that the Irving Railroads
were not counting on the MMA’s operating revenues
for repayment. After all, at that point, the payments
owed from the Irving Paper Companies to the MMA
were much larger than the payments owed from the

48a
MMA to the Irving Railroads, and all of the payments
owed to the Irving Railroads thus were made pursuant
to a swap arrangement that, at least arguably, protected the Irving Railroads in the event that the MMA
failed to pay.
In 2012, though, the Bankruptcy Court explained,
“the oil started shipping,” the MMA stopped being able
to make all its payments under the swap arrangement,
and the parties entered a “new reality.” That new reality was reflected, in turn, in the new agreement that
they reached to account for the change, as that new
agreement carved out from the swap arrangement the
payments for the charges to customers for the critical
oil shipments.
Under this new reality, the increased volume of oil
shipments meant that the MMA typically owed more to
the Irving Railroads than it expected to receive from
the Irving Paper Companies. Thus, as Keach concedes,
the Irving Railroads were as of that time “undersecured.”
Thus, we read the Bankruptcy Court to have impliedly found that the swap arrangement was no longer
serving whatever security function it may have served
at the beginning of the parties’ relationship. Rather,
we understand the Bankruptcy Court to have determined that, by that point in time, the Irving Railroads
continued to do business with the MMA because they
expected that the MMA could pay them from the revenue that it was receiving in the form of both the interline payments that it received through the ISS and the
payments that it received from customers that it directly billed. In other words, we understand the Bankruptcy Court to have supportably found that the parties’ “new system” in 2012 no longer depended on the

49a
swap arrangement for security but instead on the Irving Railroads’ confidence in the cash flow of the MMA.
Because we see no basis, on clear error review, for
rejecting these findings, we conclude that the Bankruptcy Court supportably found that the Irving Railroads expected to be paid out of the MMA’s “current
receipts,” namely the ISS payments or other similar
payments that the MMA collected, and not the general
credit of the MMA or a security arrangement. As a result, the Bankruptcy Court’s findings suffice to show
that the claims in question satisfy the third prong of the
test for giving them priority under the Miltenbergerderived test that Boston & Maine II sets forth.
Keach’s attempts to resist this conclusion are not
persuasive. Keach argues that the fact that the railroads laid out their ongoing business relationship in a
written contract is evidence that the parties depended
on each other’s credit and not on their current operating revenues to cover the debts incurred. But, a detailed, documented agreement is perfectly compatible
with repeated transactions made in reliance on current
operating revenues. Indeed, the case Keach cites on
this point, Louisville Bridge Co. v. Chicago, I. & L. Ry.
Co., 253 F. 631, 634 (7th Cir. 1918), merely found that
the specific contractual provisions at issue in that case,
including a provision allowing the creditor to terminate
the contract upon the railroad’s failure to repay, when
combined with other facts, such as the creditor’s decision to delay receipt of payment, showed an extension
of credit to the railroad. Louisville Bridge Co. does not
stand for the implausible converse proposition that a
contract specifying payment terms in and of itself
shows that the parties did not contemplate payment
from current operating revenues.

50a
Keach also contends that, because the Irving Railroads had what he contends was a “special security arrangement” with the MMA in the form of its swap
agreement, they could not have been relying on the operating revenues of the MMA to pay the debts at issue.
But, we see no basis for adopting a hard-and-fast rule—
insofar as Keach means to ask us to do so—that the
mere existence of a “ ‘ special security’ … excepts creditors from the protections of the six months rule” regardless of its terms and limitations or practical effect.
The out-of-circuit cases to which Keach cites are
not to the contrary. They merely show that—just as
the Bankruptcy Court recognized here—such arrangements may be relevant, depending on the facts, to the
Six Months Rule analysis. See Flournoy, 301 F.2d at
856 (finding that a cash-on-delivery arrangement, in
which the railroad paid the creditor for old debts at the
time of delivery, showed that the creditor “was not
looking to current earnings for payment of current deliveries but rather for payment of the old balance”);
Commonwealth Edison Co., 93 F.2d at 270 (summarizing the Six Months Rule as including a requirement
that credit not be “given in reliance upon the railroad
company’s personal credit or some special security”
(quoting Franklin W. M. Cutcheon, Some Legal Phases
of Corporate Financing, Reorganization and Regulation
106 (1931))); Gregg v. Mercantile Tr. Co., 109 F. 220, 223
(6th Cir. 1901) (finding that a lessor’s right to “resume
possession, and declare the lease forfeited” shows that
“the lessor did not rely upon its rentals as constituting
an equitable charge upon the current income of the lessee company”); In re Third Ave. Transit Corp., 138 F.
Supp. 623, 625 (S.D.N.Y. 1955) (same quotation as
Commonwealth Edison Co.).

51a
Nor does Keach’s contention fare better if we look
at the actual details of the swap arrangement and how
it worked in practice. As we have already explained,
by the time the expenses relating to the claims at issue
here were incurred, the Bankruptcy Court supportably
found, the Irving Railroads were no longer relying on
the swap arrangement for security. Thus, keeping in
mind that “each case ‘must depend largely upon its special facts,’ ” Boston & Maine II, 634 F.2d at 1379 (quoting Carnegie Steel Co., 176 U.S. at 292), and that it is
“for the reorganization court to determine … whether
the non-payment reflects an intentional extension of
credit to the railroad,” id. at 1380, we reject this final
aspect of Keach’s challenge to the ruling below.6
IV.
Accordingly, we affirm the decision of the Bankruptcy Court.

6

Keach also reasons, by analogy to the preferential transfer
rules of 11 U.S.C. § 547, that the bankruptcy laws are designed to
punish creditors who attempt to gain an advantage vis-à-vis similarly situated creditors through non-ordinary transactions, and
that disqualifying creditors who resort to such measures from Six
Months Rule protection is therefore appropriate. But, the preferential transfer rules are designed to place similarly situated creditors in the same position, not to punish the recipients of preferential transfers relative to those who did not receive such transfers.
See 5 Collier on Bankruptcy ¶ 547.01 (Richard Levin & Henry J.
Sommer eds., 16th ed. 2020) (identifying as the primary purpose of
§ 547 “the prime bankruptcy policy of equality of distribution
among creditors of the debtor”). Thus, even accepting Keach’s
characterization of the parties’ contract as out of the ordinary,
there is little reason to extrapolate from the preferential transfer
rules a general bankruptcy policy of penalizing creditors who resort to unusual contract terms to protect themselves prior to
bankruptcy.

53a
APPENDIX B
FOR PUBLICATION

UNITED STATES BANKRUPTCY APPELLATE PANEL
FOR THE FIRST CIRCUIT
BAP NO. EB 16-015
Bankruptcy Case No. 13-10670-PGC
MONTREAL, MAINE & ATLANTIC RAILWAY, LTD.,
Debtor.
ROBERT J. KEACH, CHAPTER 11 TRUSTEE,
Appellant,
v.
NEW BRUNSWICK SOUTHERN RAILWAY COMPANY LIMITED AND MAINE NORTHERN RAILWAY COMPANY,
Appellees.
Appeal from the United States Bankruptcy Court
for the District of Maine
(Hon. Peter G. Cary, U.S. Bankruptcy Judge)
Filed October 21, 2016
Before: Feeney, Deasy, and Harwood, United States
Bankruptcy Appellate Panel Judges.
* * *
OPINION
FEENEY, Chief U.S. Bankruptcy Appellate Panel
Judge.

54a
Robert J. Keach, the former chapter 11 trustee (the
“Appellant”),1 appeals the bankruptcy court’s February
26, 2016 order (the “Order”) overruling in part his objections to certain proofs of claim filed by New Brunswick Southern Railway Company Limited (“NBSR”)
and Maine Northern Railway Company (“MNR” and,
collectively with NBSR, the “Irving Railroads”). The
Appellant appeals the bankruptcy court’s ruling that
the Irving Railroads’ claims qualified as so-called “six
months claims” entitled to priority under § 1171(b).2
For the reasons set forth below, we AFFIRM.
BACKGROUND
I.

PRE-BANKRUPTCY EVENTS

From January 2003 until May 2014, Montreal,
Maine & Atlantic Railway, Ltd. (“MMA”) owned and
operated an integrated, international shortline freight
railroad system with its wholly owned Canadian subsidiary, Montreal, Maine & Atlantic Canada Co.3 This
1

The Appellant states that in accordance with the Trustee’s
Revised First Amended Plan of Liquidation Dated July 15, 2015
(as amended on October 8, 2015) (the “Plan”), upon the effective
date of the Plan (which occurred on December 22, 2015), he is no
longer the chapter 11 trustee of the bankruptcy estate, but is the
Estate Representative of the Post-Effective Date Estate (as defined in the Plan). He further states that, as the Estate Representative, he acquired all rights and duties with respect to the
prosecution of this appeal and its underlying claims. The appellees
do not challenge these averments.
2

Unless expressly stated otherwise, all references to “Bankruptcy Code” or to specific statutory sections shall be to the Bankruptcy Reform Act of 1978, as amended, 11 U.S.C. §§ 101, et seq.
3

MMA was formed in 2003 to acquire the assets of the Bangor & Aroostook Railroad Company and its affiliated railways
(“Bangor & Aroostook”) from their bankruptcy estates. MMA
commenced rail operations in January 2003.

55a
railroad system included 510 route miles of track in
Maine, Vermont, and Québec, and was a substantial
component of the rail transportation systems in northern Maine, northern New England, Québec, and New
Brunswick. Among other things, it provided the shortest rail transportation route between Maine and Montréal, and was a “critical rail artery” between St. John,
New Brunswick and Montréal. In order to provide
freight transportation services to customers throughout the system, MMA interchanged freight traffic with
other railroads, including the Irving Railroads, with
which its operations were interconnected.
A. The Interline Settlement System
MMA, like most railroads, participated in the Interline Settlement System (the “ISS”). The ISS provides
a central clearing house for all participating railroads
involved in the interchange of freight traffic among
multiple rail carriers to settle accounts receivable and
accounts payable arising from the interchange of such
traffic. Railroads participating in the ISS that originate traffic are known as “billing” or “originating” railroads and invoice the customer for all freight charges
from the point of origin to the point of destination, even
if the shipment is interchanged with other railroads
along the route. The customer is responsible for paying
the billing railroad the entire invoice, and the billing
railroad is responsible for paying the other railroads
involved in the shipment along the line for their share
of the freight charges. Railroads participating in the
ISS calculate on a monthly basis the accounts receivable and accounts payable arising from the interchange
of traffic that are due and owing to each participant,
and the payment of the net amount due and owing is
made on the second business day of each month. One of

56a
the benefits of participating in the ISS is that billing
railroads are obligated to pay the other participating
railroads regardless of whether the customer pays the
billing railroad.
B. The Relationship between MMA and the Irving Railroads
The business relationship between MMA and the
Irving Railroads began in January 2003, when MMA
entered into a Commercial Agreement (the “Commercial Agreement”) with NBSR and one of NBSR’s affiliates, Eastern Maine Railway Company (“EMR”),4 setting forth various terms and conditions governing the
interchange of freight traffic between MMA and the
Irving Railroads. Pursuant to the Commercial Agreement and a separate Interchange Agreement between
MMA and EMR, the Irving Railroads and MMA agreed
to interchange freight traffic at MMA’s Brownville
Junction Yard in Maine. Section 2 of the Commercial
Agreement, entitled “Performance of Transportation
Services,” provided as follows:
The parties agree that from and after the Effective Date, EMR/NBS[R] shall move loaded
freight cars and associated empty cars between
points located on its lines or reached by it under
Canadian interswitch rules and Brownville
Junction at rates as set out in this Agreement.
MMA shall act as the interline tariff carrier on a
junction settlement basis. By “junction settlement basis” the parties mean that MMA shall
negotiate through rates and make contracts and
4

NBSR operated various railroad lines in New Brunswick.
EMR operated a railroad line in Maine which connected with
NBSR’s lines. EMR is a “sister company” of NBSR.

57a
provide quotations, and shall be responsible for
car supply to the extent requested by NBS[R]
and reasonably available from MMA and in rail
cars customarily supplied by railroad carries, all
in accordance with the provisions of this
Agreement. MMA shall continue to render one
freight bill, and assess and collect the total
amount of freight charges … and remit the portion pertaining to EMR/NBS[R’s] transportation services to EMR/NBS[R] in accordance
with the procedures in this Agreement.
At the evidentiary hearing described below, and
while addressing the freight carried by MMA to the interchange point with the Irving Railroads, Ian Simpson,
general manager of the Irving Railroads, explained that
the interchange of freight traffic involved the decoupling
of freight cars from MMA’s locomotives and connecting
them to the Irving Railroads’ locomotives, which then
carried the freight cars to their final destination.
The Irving Railroads did not participate in the ISS.5
As a result, pursuant to the Commercial Agreement,
MMA acted as the billing railroad when either of the Irving Railroads originated traffic and interchanged with
MMA, as well as when MMA originated traffic and interchanged with either of the Irving Railroads. MMA
also collected from the ISS freight revenue attributable
to freight services provided by the Irving Railroads in
connection with shipments originated by other carriers
5

According to Mr. Simpson, the Irving Railroads did not participate in the ISS for several reasons, including lack of resources
and the existence of relationships with other carriers that rendered participation in the ISS unnecessary. He also testified the
decision not to participate in the ISS was not influenced in any
way by the credit worthiness of MMA.

58a
that were interchanged by such carriers with MMA and
then by MMA with the Irving Railroads. Periodically,
MMA and the Irving Railroads settled their accounts
payable and receivable as between themselves. Other
than certain amounts for repair of cars owned or leased
by MMA, the Irving Railroads’ claims, as described below, arose from MMA’s collection of funds either from
customers or through the ISS and its failure to pay
amounts due to the Irving Railroads.
C. The “Payment Swap” Arrangement
At the time MMA and the Irving Railroads began
doing business, Karl Hansen, general manager of Corporate Credit and Finance for the Irving Railroads and
their affiliated companies, had concerns MMA would
not be able to pay the Irving Railroads due to the troubled history of MMA’s predecessor, Bangor &
Aroostook. As a result, the Irving Railroads, together
with certain of their affiliated paper companies, Irving
Pulp and Paper, Limited, Irving Paper Limited, and
J.D. Irving, Limited (collectively, the “Irving Paper
Companies”), which were among MMA’s largest customers, agreed with MMA on a process to settle their
respective accounts receivable and accounts payable by
concurrently exchanging payments through wire transfers of amounts owed to each other. Included in this
“payment swap” arrangement6 were: (1) accounts pay6

The Appellant characterizes this arrangement as a “triangular setoff,” contending the Irving Paper Companies would “withhold payment” on MMA’s accounts receivable until MMA agreed
to pay the Irving Railroads and, therefore, those payments acted
as “collateral for … a secured credit relationship.” The Irving
Railroads disagree with that characterization, contending they
concurrently exchanged wire transfers of cash with MMA on the
settlement date and, therefore, the arrangement was a “cash
swap.” The bankruptcy court referred to the arrangement as a

59a
able owed by the Irving Paper Companies to MMA for
freight services provided by MMA to the Irving Paper
Companies; (2) accounts payable owed to MMA by the
Irving Railroads for interline freight services provided
by MMA; and (3) accounts receivable owed by MMA to
the Irving Railroads for interline freight services provided by them. Under this arrangement, the parties
would determine, based upon the payment terms in effect between them, the amounts due from the Irving
Railroads and the Irving Paper Companies to MMA,
and the amounts due from MMA to the Irving Railroads, and then concurrently exchange cash payments
in the agreed upon amounts. Initially, the amounts
owed to MMA by the Irving Railroads and the Irving
Paper Companies each week greatly exceeded the
amounts owed by MMA to the Irving Railroads. Mr.
Hansen explained the reason for entering into this arrangement as follows: “I was determined that I was
not going to take a credit risk, I was not relying on
their credit to [e]nsure we got paid.”
D. The Agreement Regarding Oil Shipments
The payment swap arrangement worked well until
the volume of crude oil shipments carried by MMA and
interchanged with the Irving Railroads for delivery to
refineries in St. John, New Brunswick began to increase significantly in 2012. In the two years leading
up to the bankruptcy filing, MMA benefited from the
increased use of trains to move oil from the central and
“weekly payment swap system,” finding the transfers were done
“virtually simultaneously.” At the hearing, Mr. Hansen testified
that if MMA did not pay, he would have “held the wire” but he
would not have offset the amount owed by MMA from the amounts
the Irving Paper Companies owed MMA because it was “too
messy” from an accounting perspective.

60a
western regions of the United States to refineries in
the east. United States and Canadian oil drillers were
producing oil faster than the new pipelines could be
built, and trains were needed to transport crude oil to
refineries. During this time, MMA was hauling 500,000
barrels of oil monthly through Québec and Maine. For
the majority of such oil shipments, the originating railroad was Canadian Pacific Railway Company and its
affiliates (“CP”), which participated in the ISS. CP was
the first railroad to haul the oil, and the shipment would
then travel across the country over a number of railway
lines until it eventually interchanged with MMA. MMA
would haul the oil over its lines and then interchange
the freight with the Irving Railroads, which delivered
the oil to its final destination at the Irving Oil refinery
in St. John, New Brunswick.7
The payments for the oil shipments were processed
through the ISS. Because the Irving Railroads were
not members of the ISS, they could not collect from the
ISS for their share of freight interline charges. Rather,
the ISS paid MMA, and MMA paid the Irving Railroads
pursuant to the terms of their payment arrangement.
Typically, MMA did not receive payments through
the ISS until 45 to 60 days following the shipments.
Under the terms of payment in effect with the Irving
Railroads, however, MMA was obligated to pay the Irving Railroads its share of the freight charges for oil
shipments within 33 days of shipment. This was not a
problem when the Irving Paper Companies owed MMA
more than MMA owed them. But eventually, due to
the significant increase in oil shipments carried by
7

It is undisputed that Irving Oil is not affiliated with the Irving Railroads or the Irving Paper Companies.

61a
MMA and interchanged with the Irving Railroads for
delivery to St. John, New Brunswick, the amounts
owed by MMA for interline freight services provided
by the Irving Railroads began to exceed the amounts
owed by the Irving Paper Companies to MMA, and
MMA did not have enough cash to make the simultaneous payments under the swap arrangement.
In order to address this situation, in July 2012, the
parties agreed MMA would pay the Irving Railroads
for their share of freight charges earned in connection
with oil shipments promptly upon MMA’s receipt of
payment from the ISS, and in no event later than five
days thereafter. According to the Irving Railroads, the
amounts owed to them for interline freight charges incurred in connection with oil shipments were “carved
out of the swap arrangement, and instead, those charges would be paid to the Irving Railroads upon MMA’s
receipt of payment from the ISS of the amounts owed
to MMA for such shipments.” As to “local” shipments
(those which were originated either by MMA and interchanged with the Irving Railroads, or those originated
by the Irving Railroads and interchanged with MMA),
the swap arrangement remained in effect.
II. THE DERAILMENT AND MMA’S BANKRUPTCY FILING
On July 6, 2013, an unmanned train operated by
MMA containing 72 tank cars filled with crude oil derailed in Lac-Mégantic, Québec, causing several large
explosions, the death of 47 people, and significant property and environmental damage. After the derailment,
train activity was temporarily halted between Maine
and Québec, resulting in the immediate loss of most of
MMA’s freight business and a drastic fall in MMA’s
gross revenues.

62a
On August 7, 2013, MMA filed a chapter 11 petition
in the U.S. Bankruptcy Court for the District of Maine,
and the Appellant was subsequently appointed as the
chapter 11 trustee. On January 24, 2014, the bankruptcy court entered an order approving the sale of substantially all of MMA’s assets as a going concern to
Railroad Acquisition Holdings LLC. The sale of
MMA’s assets closed on May 15, 2014.
On June 13, 2014, MNR and NBSR timely filed
proofs of claim (collectively, the “Claims”).8 In Claim
259-1, NBSR asserted claims in the aggregate amount
of $2,164,471.30 arising from “[f]reight services provided to [MMA] in connection with interline rail shipments.” Of the total amount claimed, NBSR asserted
not less than $1,971,834.67 was “secured by equitable
liens against all property of [MMA] under the Six
Month[s] Rule applicable in federal court receiverships,
and [we]re entitled to priority pursuant to 11 U.S.C.
§ 1171(b),” because such claims: (1) related to current
operating expenses incurred by MMA that were necessary for the on-going operation of MMA’s railroad; (2)
were incurred within six months prior to the commencement of MMA’s bankruptcy case; and (3) were for
services provided by NBSR with the expectation they
would be paid out of current operating revenue and not
in reliance on MMA’s general credit.

8

MNR also filed Proof of Claim No. 242-1, which was identical
to Claim 257-1, and NBSR filed Proof of Claim 243-1, which was
identical to Claim 259-1. The Appellant objected to Claim Nos.
242-1 and 243-1 on the grounds that they were duplicate claims and
should be disallowed in their entirety. Prior to the hearing on the
Appellant’s objection, MNR and NBSR withdrew the duplicate
claims. Therefore, they were not at issue before the bankruptcy
court, and are not at issue in this appeal.

63a
In Claim 257-1, MNR asserted claims in the aggregate amount of $355,101.19 arising from “[f]reight services provided to [MMA] in connection with interline
rail shipments.” Of the total amount claimed, MNR asserted approximately $167,228.89 was entitled to priority (b) for the same reasons advanced by NBSR in under § 1171Claim 259-1.
On July 16, 2015, the Appellant filed the Plan and
Revised First Amended Disclosure Statement (“Disclosure Statement”).9 The Irving Railroads objected to
confirmation of the Plan arguing, among other things,
that it failed to provide the same treatment for allowed
§ 1171(b) claims as it provided for administrative expense claims—i.e., payment in full following confirmation of the Plan.
On October 9, 2015, the bankruptcy court entered
an order confirming the Plan (“Confirmation Order”).
The Confirmation Order provided, in relevant part:
In resolution of the [Irving Railroads’] Objection, any 1171(b) Claims of the [Irving Railroads] shall be paid in full, in Cash, on the later
of the Initial Distribution date or thirty (30)
days after the date such Claims become Allowed Claims. In the event the Bankruptcy
Court has not determined, prior to the Initial
Distribution Date, the existence of and/or the
amount of any Allowed 1171(b) Claims of the
[Irving Railroads], if any, as of such date, the
Trustee shall set aside, and not distribute pend9

In the Disclosure Statement, the Appellant indicated that
the Plan was a plan of liquidation of MMA’s assets, as well as a
plan which created and distributed a substantial settlement fund
for the benefit of all victims of the derailment.

64a
ing further order of the Bankruptcy Court
making such determination, $2,139,063.56 to secure any payment, to the extent required, with
respect to such Allowed 1171(b) Claims, when
and if determined.
On October 19, 2015, the Appellant filed an objection to the Claims (the “Claims Objection”), on the
ground they were improperly asserted as priority
claims and should be allowed only as general unsecured
claims.
Specifically, the Appellant argued, “as a matter of
controlling law in this circuit,” pre-petition interline
freight claims of the type asserted by the Irving Railroads are general unsecured claims and do not qualify
as six months claims entitled to priority under
§ 1171(b), citing In re Boston & Maine Corp., 600 F.2d
307 (1st Cir. 1979) (“Boston & Maine I”). The Appellant also argued, in furnishing services to MMA, the Irving Railroads relied—not on MMA’s operating revenues at the time the service was provided—but upon
MMA’s general credit and, as a consequence, their
claims were not entitled to priority as § 1171(b) claims,
citing In re Boston & Maine Corp., 634 F.2d 1359 (1st
Cir. 1980) (“Boston & Maine II”).
In their response (“Irving Railroads’ Response”),
the Irving Railroads argued Boston & Maine I was not
applicable or controlling law on the issue because the
court did not decide, or even address, the issue of
whether interline freight claims qualify as six months
claims entitled to priority in a railroad reorganization;
rather, Boston & Maine I only addressed the question
of the timing of the payment of such claims. The Irving
Railroads also contended the question of whether the
interline freight claims asserted in Boston & Maine I

65a
were entitled to treatment as priority claims under the
plan of reorganization was addressed by the U.S. Court
of Appeals for the First Circuit in the subsequent case
of Boston & Maine II. According to the Irving Railroads, in Boston & Maine II, the First Circuit reversed
a decision of the district court ruling those claims
should be treated as general unsecured claims, holding
instead that per diem claims, such as those asserted by
the interlining railroads, constituted six months claims
entitled to priority, if such claims: (1) represented a
current operating expense necessarily incurred; (2)
were incurred within six months before the reorganization petition was filed; and (3) the goods or services
were delivered in the expectation that they would be
paid for out of current operating revenues of the railroad, and not in reliance on the railroad’s general credit. And, the Irving Railroads maintained, the evidence
clearly established the Claims satisfied the test articulated in Boston & Maine II.
On November 19, 2015, the parties filed stipulations with respect to the Claims Objection, in which
they stipulated to certain facts and agreed the only issue to be addressed at the hearing on the Claims Objection was whether the Claims qualified as six months
claims entitled to priority under § 1171(b); the amount
of such Claims would be determined at a subsequent
hearing, if required.
On November 20, 2015, the bankruptcy court held
an evidentiary hearing during which Mr. Hansen and
Mr. Simpson testified. Following the hearing, the
bankruptcy court took the matter under advisement,
and directed the parties to submit post-trial briefs.
Both parties filed post-trial briefs on December 10,
2015.

66a
On February 5, 2016, the bankruptcy court issued
oral findings of fact and conclusions of law, determining
the Claims were entitled to priority as six months
claims under § 1171(b). In its ruling, the bankruptcy
court rejected the Appellant’s contention that claims
arising from interline freight services cannot, as a matter of law, qualify for priority under § 1171(b), stating:
I read Boston [&] Maine II to have reversed
the decision of the District Court, which denied
priority treatment of the claims of interlining
railroads which sought six-month priority status for their per diem claims. … [A]s a matter
of law, the mere fact that the claims are for interline freight services does not exclude them
from possible priority consideration.
The bankruptcy court then stated “if the claimant
railways can satisfy the judicially established three elements required for the 1171(b) claims [set forth in
Boston & Maine II], then they’re entitled to priority
treatment.” Turning to the evidence, the bankruptcy
court found the Claims satisfied each of the elements of
the Boston & Maine II test.
As to the “necessity of the charges,” the bankruptcy court looked at the testimony of Mr. Hansen and Mr.
Simpson regarding the importance of the “critical rail
artery” between St. John, New Brunswick and Montréal to MMA and found MMA’s inability to interchange
traffic with the Irving Railroads on that route would
have had a significant adverse effect on MMA’s operations, including possible loss of business with Irving
Paper Companies as well as a reduction in revenue. As
to this prong, the bankruptcy court concluded:
Based upon this and the other evidence adduced at the hearing, I conclude that the claim-

67a
ant railways satisfied their burden on the necessity issue. I don’t ascribe to the narrow
view of what a necessity is. I find that [ ] sufficient claims are for a current expense, goods
and services and [ ] ordinary operation of the
rail.
As to the second prong—whether the Claims were
incurred within six months before the petition was
filed—the bankruptcy court determined there had been
“no meaningful challenge” to this asserted element.
As to the third prong—whether the goods or services were delivered in the expectation that they be
paid for out of MMA’s current operating revenues and
not in reliance on MMA’s general credit—the bankruptcy court concluded:
Based on testimony … as well as other evidence presented at the hearing, I conclude that
the claimant railways met their burden as to
the third element of the 1171(b) claims. Testimony shows that, in order to keep the interchange of services going between the parties,
claimant railways agreed to wait for the ISS
system to process payment and then to pay …
them to MMA before MMA would pay the
claimant railways. I do not conclude that this
was reliance on MMA’s credit, nor do I conclude that this was some sort of special security
arrangement which excepts the claimant railways from the protection of the six-months
rule.
I didn’t find anything in that deal or that arrangement that had incorporated common conditions of the commercial credit, security interests, and the like.

68a
I do not find that the existence of the Wheeling
line of credit changes my conclusion. Mr. Hansen was not aware that MMA had a line of credit with Wheeling, he so testified. Mr. Simpson
admitted he was aware of it “anecdotally,” but
had no knowledge of how it “worked,” and was
not familiar with it. Nobody, according to the
testimony, ever advised Mr. Hansen or Mr.
Simpson that MMA’s ability to pay claimant
railroads was dependent on MMA being able to
draw on the Wheeling line of credit.
So based upon the unique facts and my analysis
of the equities asserted by MMA, on one hand,
and [t]he claimant railroads, on the other, I
conclude that the claimant railways have met
their burden. The claims shall be allowed as
1171(b) claims.
Thereafter, the bankruptcy court entered the Order, which memorialized its ruling as follows:
Based upon the unique facts of this matter and
the Court’s analysis of the equities asserted by
MMA, on the one hand, and the [Irving Railroads], on the other, the [Irving Railroads] met
their burden of establishing that the Asserted
1171(b) Claims qualify as claims that are entitled to priority under § 1171(b) of the Code because:
(1) the Asserted 1171(b) Claims represent
current operating expenses that were necessarily incurred by MMA in connection
with its on-going operations;

69a
(2) the Asserted 1171(b) Claims were incurred within six months prior to the commencement of this case; and
(3) the services that are the subject of the
Asserted 1171(b) Claims were provided to
MMA with the expectation that they would
be paid for out of the current operating
revenues of MMA, and not in reliance on its
general creditworthiness.
The Order also provided:
The Asserted 1171(b) Claims, to the extent allowed, are afforded priority status under
§ 1171(b). The amount of the Asserted 1171(b)
Claims is not determined by this Order, and
thus those Asserted 1171(b) Claims are not allowed in any amount at this time. The [Appellant]’s rights to object to the amount of the Asserted 1171(b) Claims are fully reserved.
The Appellant timely filed a notice of appeal of the
Order, and a motion for leave to appeal. The Irving
Railroads filed a response to the motion for leave to appeal, stating they did not oppose the motion because
they agreed the resolution of the pending appeal might
advance the final disposition of litigation with the Appellant in several matters pending before the bankruptcy court. In an order dated March 29, 2016, the
Panel granted the motion for leave to appeal.10
10

The Panel exercised its discretion under 28 U.S.C.
§ 158(a)(3) to hear this interlocutory appeal because the Order involved a controlling issue of law, and because both parties agreed
that resolution of this appeal could materially advance the ultimate
termination of the claims adjudication process and the preference
litigation pending in the bankruptcy court.

70a
JURISDICTION
The Panel has jurisdiction to hear appeals from: (1)
final judgments, orders and decrees; or (2) with leave of
court, from certain interlocutory orders. 28 U.S.C.
§ 158(a); Fleet Data Processing Corp. v. Branch (In re
Bank of New Eng. Corp.), 218 B.R. 643, 645 (B.A.P. 1st
Cir. 1998). A decision is considered final if it “ends the
litigation on the merits and leaves nothing for the court
to do but execute the judgment.” Id. at 646 (citations
omitted). An interlocutory order, however, “only decides some intervening matter pertaining to the cause,
and requires further steps to be taken in order to enable the court to adjudicate the cause on the merits.” Id.
(quoting In re American Colonial Broad. Corp., 758
F.2d 794, 801 (1st Cir. 1985)).
In the Order, the bankruptcy court ruled that the
Claims would be afforded priority status under
§ 1171(b), but it did not determine whether the Claims
would be allowed and if so, in what amount. Thus, the
Order did not resolve all of the issues relating to the
Claims, and is interlocutory. As noted above, however,
the Panel exercised its discretion under 28 U.S.C.
§ 158(a)(3) to hear this interlocutory appeal.
STANDARD OF REVIEW
The Panel reviews a bankruptcy court’s findings of
fact for clear error and its conclusions of law de novo.
See Castellanos Grp. Law Firm, L.L.C. v. F.D.I.C. (In
re MJS Las Croabas Props., Inc.), 545 B.R. 401, 417
(B.A.P. 1st Cir. 2016) (citation omitted). The question
as to whether the bankruptcy court correctly held, as a
matter of law, that interline freight claims may qualify
for priority status under § 1171(b) if they satisfy the
test adopted by the First Circuit in Boston & Maine II

71a
is a legal question which is subject to de novo review.
See United States v. Cushing (In re Cushing), 401 B.R.
528, 532 (B.A.P. 1st Cir. 2009); Morad v. Xifaras (In re
Morad), 323 B.R. 818, 822 (B.A.P. 1st Cir. 2005). The
bankruptcy court’s findings that the Claims did, in fact,
satisfy each of the elements of the Boston & Maine II
test are findings of fact subject to review under the
clearly erroneous standard and should not be overturned unless this Panel is left with “a ‘strong, unyielding belief’ that the bankruptcy judge made a mistake.”
Sharfarz v. Goguen (In re Goguen), 691 F.3d 62, 69 (1st
Cir. 2012) (quoting Cumpiano v. Banco Santander
P.R., 902 F.2d 148, 152 (1st Cir. 1990)).
DISCUSSION
I.

THE LEGAL STANDARD
A. Claims Allowance

Sections 501 and 502 govern the filing and allowance of creditor claims in bankruptcy proceedings.
When a debtor files for relief, each creditor is entitled
to file a proof of claim against the debtor’s estate pursuant to § 501. Section 502(a) provides that a proof of
claim filed under § 501 “is deemed allowed, unless a
party in interest … objects.” 11 U.S.C. § 502(a). When
a party in interest objects to a proof of claim, “the
court, after notice and a hearing, shall determine the
amount of such claim in lawful currency of the United
States as of the date of the filing of the petition, and
shall allow such claim in such amount,” unless one of
statutory grounds for disallowance applies. 11 U.S.C.
§ 502(b).
“A proof of claim executed and filed in accordance
with these rules shall constitute prima facie evidence of
the validity and amount of the claim.” Fed. R. Bankr.

72a
P. 3001(f); see also In re Long, 353 B.R. 1, 13 (Bankr. D.
Mass. 2006) (citing Juniper Dev. Grp. v. Kahn (In re
Hemingway Transp., Inc.), 993 F.2d 915, 925 (1st Cir.
1993)). In order to rebut this prima facie evidence, the
objecting party must produce “substantial evidence” in
opposition to it. See In re Perron, 474 B.R. 310, 313
(Bankr. D. Me. 2012) (citations omitted); In re Long,
353 B.R. at 13; see also Am. Express Bank, FSB v.
Askenaizer (In re Plourde), 418 B.R. 495, 504 (B.A.P.
1st Cir. 2009); United States v. Clifford (In re Clifford),
255 B.R. 258, 262 (D. Mass. 2000). If the objecting party produces substantial evidence in opposition to the
proof of claim and thereby rebuts the prima facie evidence, the burden shifts to the claimant to establish the
validity of its claim by a preponderance of the evidence.
In re Long, 353 B.R. at 13 (citing Hemingway
Transport, 993 F.2d at 925); In re Plourde, 418 B.R. at
504 (citations omitted).
Here, the Irving Railroads asserted unsecured
claims, a portion of which they claimed were entitled to
priority under § 1171(b). The Appellant did not challenge the Irving Railroads’ assertion of unsecured
claims, but rather the priority asserted in the Claims.11
The bankruptcy court determined the Appellant put
forth sufficient evidence to negate the prima facie validity of the Claims and the priority asserted for the
Claims, and, therefore, the burden was on the Irving
Railroads to establish that the Claims were entitled to
priority under § 1171(b).

11

Pursuant to the Order, the Appellant also reserved his
right to object to the amount of the Claims.

73a
B. Claims Entitled to Priority Under § 1171(b)
A fundamental principle of bankruptcy law requires
that all unsecured creditors of an equal class be treated
in a like manner throughout the bankruptcy proceeding.
See In re CoServ, L.L.C., 273 B.R. 487, 494 (Bankr. N.D.
Tex. 2002) (“[T]he entire scheme of the Bankruptcy
Code favors equal (and simultaneous) treatment of equal
allowed claims.”). Thus, payments to unsecured creditors are distributed according to the priority schemes
set forth in the Bankruptcy Code. Section 507 specifies
the kinds of unsecured claims that are entitled to priority in distribution and the order of such priority. In
chapter 11 cases, priority claims must be paid in full in
order to confirm a reorganization plan. See 11 U.S.C. §
1129(a)(9). Although § 507 is the designated section
governing priorities upon distribution of assets to unsecured creditors, however, other sections of the Bankruptcy Code relate to and may have an effect on these
priorities. One such section is § 1171(b), which accords
certain claims the same priority in railroad reorganization cases as would be recognized if a receiver in equity
had been appointed. Section 1171(b) provides:
Any unsecured claim against the debtor that
would have been entitled to priority if a receiver in equity of the property of the debtor had
been appointed by a Federal court on the date
of the order for relief under this title shall be
entitled to the same priority in the case under
this chapter.
11 U.S.C. § 1171(b).
Section 1171(b) codified a long-established equitable doctrine referred to as the “Six Months Rule” which
developed in railroad receivership cases based on the
practice of allowing railroad receivers to pay certain

74a
necessary expenses incurred in the period immediately
preceding the receivership. See Boston & Maine II,
634 F.2d at 1366-1379. Under the Six Months Rule,
railroad receivers were entitled to pay the unpaid
claims of operations creditors arising in the six months
preceding the reorganization before paying mortgagees
and secured creditors, giving these claims a priority
status. “The justification for [the] doctrine was that it
would be inequitable to operating creditors, supplying
the necessary services and products for the railroad’s
continued existence and revenue generation, if the resulting operating revenue benefited secured creditors,
who were not entitled to the operating revenue of the
railroad until a receiver was appointed.”
In re
Jeans.com, Inc., 502 B.R. 250, 253 (Bankr. D.P.R. 2013)
(citation omitted) (internal quotations omitted). “In essence, the rule gave pre-bankruptcy unsecured claims
of vendors and other operating creditors that arose
within six months before the receivership priority in
payment over secured creditors.” Id. (citation omitted)
(internal quotations omitted).
The Six Months Rule was given statutory recognition in § 77(b) of the Bankruptcy Act of 1898 (“Bankruptcy Act”), 11 U.S.C. § 205(b) (repealed 1976), and
then codified in § 1171(b) of the Bankruptcy Code.12
Although the statute does not expressly mention the
12

The language of § 1171(b) is substantively the same as that
of § 77(b) for the former Bankruptcy Act. Moreover, the legislative history of this section indicates that it is an expansion of the
priorities afforded under § 507. The Senate Report on § 1171(b)
indicates that the priority traditionally accorded by § 77(b) of the
former Bankruptcy Act is a priority for “claims by rail creditors
for necessary services rendered during the 6 months preceding the
filing of the petition in bankruptcy.” S. Rep. No. 95-989, 95th
Cong. 2d Sess. at 135, 136 (1978).

75a
Six Months Rule, it is well settled that § 1171(b) makes
the doctrine applicable to railroad reorganizations and
the prior equity receivership law survived enactment of
the statute. See B & W Enters., Inc. v. Goodman Oil
Co. (In re B & W Enters., Inc.), 713 F.2d 534, 536 (9th
Cir. 1983) (“[T]here is little doubt that Congress intended that § 1171(b) operate to continue the Six
Months Rule in granting certain creditors priority.”)
(citing H.R. Doc. No. 137, 93d Cong., 1st Sess. 424
(1978); Boston & Maine II, 634 F.2d at 1379-80 n.35;
Alan N. Resnick and Henry J, Sommer, 5 Collier on
Bankruptcy ¶ 1171.02 (15th ed. 1979)). Thus, the claims
entitled to priority under § 1171(b) are often referred to
as “six months claims.”
Section 1171(b) does not, however, set forth the
terms or conditions which give rise to a priority for six
months claims. Thus, it was left to the courts to “ ‘ determine the precise contours of the priority recognized
by this subsection’ ” in each case. In re Michigan Interstate Ry. Co., 87 B.R. 921, 926 (Bankr. E.D. Mich.
1988) (quoting H.R. Rep. No. 95-595, 95th Cong. 1st
Sess. at 424 (1977), reprinted in 1978 U.S.C.C.A.N.
5787, 6380). Here, the bankruptcy court determined
the First Circuit’s decision in Boston & Maine II sets
forth the applicable standard for determining whether
a claim is entitled to priority as a six months claim under § 1171(b). Thus, we turn to the First Circuit’s two
opinions in the Boston & Maine Corp. case.
C. The Boston & Maine Corp. Decisions
The First Circuit addressed interline claims in two
appeals arising from the reorganization of the Boston &
Maine Corp., formerly known as the Boston & Maine
Railroad Co. The first decision, Boston & Maine I, involved an appeal from the district court’s refusal to order

76a
immediate payment of pre-petition “per diem” charges
owed to certain interline carriers.13 600 F.2d at 307. During the course of a 15-year dispute over the reasonableness of the per diem charges, the Interstate Commerce
Commission (the “ICC”) entered an order establishing
the per diem rates that could properly be charged for the
period from 1953 through August 1, 1969, and directing
that interlining railroads pay per diem charges at the prescribed rates from August 1, 1969 onward.
After Boston & Maine Corp. filed its bankruptcy
petition on March 12, 1970, several of its interline carriers sought an order compelling the trustee to pay immediately: (1) the difference between what Boston &
Maine Corp. had actually paid for per diem charges that
had accrued prior to August 1, 1969, and what should
have been paid under the rates established by the ICC;
and (2) per diem charges accruing on and after August
1, 1969 at the prescribed rates. The interline carriers
argued that because the trustee’s operation of Boston
& Maine Corp. was subject to the jurisdiction of the
ICC, and because the ICC had established the rates
and had ordered payment of the charges at specific
times, neither the trustee nor the court had discretion
to defer their payment. Id. at 308.
13

The practice of “interlining” freight cars means loaning cars
to one another rather than loading and unloading freight every
time a shipment passes onto rails belonging to a different railroad.
Boston & Maine I, 600 F.2d at 307. “Per diem” charges are charges owed by one railroad to another railroad for the use of that railroad’s cars in connection with the interline shipment of freight. Id.
The Appellant conceded below that per diem charges and interline
freight charges are functionally equivalent for purposes of determining priority under § 1171(b). See Trustee’s Claims Objection at
10 (“Interline rail shipments are in the nature of ‘per diem’ charges
under an interline settlement system like the ISS.”). Thus, the
Boston & Maine Corp. decisions are relevant to our inquiry.

77a
The First Circuit rejected the interline carriers’
argument, finding “there is no specific provision in either the Bankruptcy Act or the Interstate Commerce
Act giving the ICC the power to override the reorganization court’s discretion in setting the time for payment
of claims against the estate.” Id. at 310. Citing with
approval the Third Circuit’s decision in In re Penn Central Transportation Co., 553 F.2d 12 (3d Cir. 1977), the
court held that the “ ‘ countless financial and operating
exigencies’ ” that arise on a daily basis in a reorganization proceeding mandate that the reorganization court
be free to exercise its discretion in approving payments
of pre-petition obligations during the course of the proceeding. Boston & Maine I, 600 F.2d at 311-12. Based
upon the circumstances present in the Boston & Maine
Corp. reorganization, the court held that the district
court had not abused its discretion in refusing to order
the immediate payment of the pre-petition per diem
charges. Id. The First Circuit did not address whether
the pre-petition per diem claims of the interline carriers would qualify for priority status as six months
claims under a plan of reorganization as might be eventually proposed in the case.
The same per diem claims were again before the
First Circuit in Boston & Maine II. In that case, the
interline carriers, having lost the right to immediate
payment of their per diem claims at the outset of the
bankruptcy, sought, among other things, priority in
Boston & Maine Corp.’s plan of reorganization for
$3,000,000 of their claims that had accrued within six
months of bankruptcy. The district court determined
their claims were not entitled to priority. See In re
Boston & Me. Corp., 468 F. Supp. 996 (D. Mass. 1979).
In rejecting the interline carriers’ claims of priority, the
district court relied upon a line of authorities that had

78a
evolved from the Supreme Court’s decision in Fosdick
v. Schall, 99 U.S. 235 (1879), which held that in order to
qualify for priority as a six months claim, the claimant
was required to establish, among other things, that the
debtor railroad had generated a “current debt fund”
(i.e., current earnings in excess of operating expenses)
out of which priority payments could be made. 468 F.
Supp. at 1002. Finding that no current debt fund existed, the district court held the interline carriers’ claims
did not qualify for priority under the Six Months Rule.
Id. at 1008. The interline carriers appealed.
Following a lengthy review of the relevant case law
interpreting the equity receivership rules that had developed in railroad receiverships and incorporated in
§ 77(b) of the Bankruptcy Act, the First Circuit reversed, and ruled that per diem claims of interline carriers may be entitled to priority under the Six Months
Rule without regard to a current debt fund. Relying
upon a separate line of cases interpreting the Supreme
Court’s decision in Miltenberger v. Logansport Railway
Co., 106 U.S. 286 (1882),14 the First Circuit held that
14

Miltenberger is the seminal case on the Necessity of Payment Rule, which is another principle of railroad receiverships and
is often confused with the Six Months Rule. Whereas the Six
Months Rule is a rule of priority, the Necessity of Payment Rule is
one of payment. See In re Boston & Me. Corp., 468 F. Supp. at
1008. This rule developed to allow trustees to pay pre-petition
debts under threats of creditors in order to obtain continued supplies or services essential to the continued operation of the debtor’s business. See In re B & W Enters., Inc., 713 F.2d at 537. Miltenberger involved an appeal of an order directing a railroad receiver’s immediate payment of certain pre-receivership claims. In
Miltenberger, interline railroads threatened to cease furnishing
supplies and interline traffic exchanges unless the railroad receiver immediately paid pre-receivership claims. The Supreme Court
affirmed the circuit court order directing the railroad receiver to
pay the pre-receivership claims prior to reorganization. In ap-

79a
the district court had incorrectly required, in addition
to these criteria, the existence of a current debt fund as
prerequisite for according priority to these types of six
months claims, stating:
In any event, it must be concluded that the
class of creditors entitled to the priority contemplated by Section 77(b) [of the Bankruptcy
Act], is not limited to participation in the current debt (expense) fund defined in terms of
Fosdick equitable restitution, but extends to
participation in reorganization railway operating revenues essentially on the same basis as
administration expenses incurred during the
reorganization period.
Boston & Maine II, 634 F.2d at 1380. As the First Circuit noted: “Miltenberger [wa]s concerned, not with the
‘diversion’ [debt fund] precept of Fosdick, but with the
more general authority of the receivership court to accord priority status to pre-receivership claims in order
to prevent the stoppage of a business impressed with
the public interest.” Id. at 1370. Thus, the First Circuit ruled that the per diem claims of the interline carriers were entitled to priority as six months claims if
each such claim met the following three criteria:
(1) it represent[ed] a current operating expense
necessarily incurred, (2) was incurred within
six months before the reorganization petition
was filed, and (3) the goods or services were deproving the payments, the Court gave the following justification:
“Many circumstances may exist which may make it necessary and
indispensable to the business of the road and the preservation of
the property, for the receiver to pay pre-existing debts … where a
stoppage of the continuance of such business relations would be a
probable result, in case of non-payment.” 106 U.S. at 312.

80a
livered in the expectation that they would be
paid for out of current operating revenues of
the railroad, and not in reliance on the
[rail]road’s general credit … .
Id.15
In its opinion, the First Circuit specifically identified “interline claims” as a type of claim which could
qualify for priority as a six months claim, referring to
the possible “stoppage of traffic interchange” as one of
the “disastrous consequences” of failing to pay such
claims. Id. at 1377-78. The court also cited with approval a number of cases which recognized interline
freight claims as quintessential examples of six months
claims. For example, the First Circuit cited Southern
Ry. Co. v. Flournoy, 301 F.2d 847 (4th Cir. 1962), in
which the Fourth Circuit emphasized that, from Miltenberger forward, “public concern with the continued
operation of the railroad has been a factor supporting
the priority accorded general creditors.” 634 F.2d at
1375. The Fourth Circuit accorded interline traffic balances and other interline accounts a priority over the
mortgage bondholders, treating the six month limitation as preventing operating claims from undermining
the mortgage through secret liens. Id. The First Circuit also cited Finance Co. v. Charleston, C. & C. R.
Co., 62 F. 205, 208 (4th Cir. 1894), in which the court
held that interline claims for freight and freight balanc15

Other courts have similarly recognized these three criteria
for priority as a six months claim. See, e.g., In re Mich. Interstate
Ry. Co., 87 B.R. at 922-26; see also In re New York, New Haven &
Hartford. R.R. Co., 278 F. Supp. 592, 596 (D. Conn. 1967). Courts
differ, however, as to whether claimants are entitled to establish
any additional elements, such as the existence of a “current debt
fund” as set forth in Fosdick and its progeny.

81a
es could be given priority depending upon the facts and
circumstances of the particular case, and the character
of the claims. 634 F.2d at 1371-72. And the First Circuit noted that in In re Tenn. Cent. Ry. Co., 316 F.
Supp. 1103, 1110 (M.D. Tenn. 1970), vacated on other
grounds, 463 F.2d 73 (6th Cir. 1972), the court accorded
a priority for claims for interline freight balances, relying in part on the special character of interline freight
balances as collections for which the railroad had to account to connecting carriers. 634 F.2d at 1376.
Having found that the district court had failed to
apply the correct legal standard in considering whether
the interline carriers’ per diem claims were to be accorded priority as six months claims, the First Circuit
remanded the case for further proceedings consistent
with its opinion. Id. at 1382. On remand, the district
court held, “in accordance with the principles in Boston
& Maine [II],” that the interline carriers’ per diem
claims in the amount of $3,000,000 were to be treated as
six months priority claims in the railroad’s plan of reorganization, and were to be paid in full and in cash on the
effective date of the plan. See In re Boston & Me.
Corp., 46 B.R. 930, 941, 956 (D. Mass. 1983).
In this case, the bankruptcy court held that the
three-part test set forth in Boston & Maine II is the
applicable standard in the First Circuit for determining
whether the Claims were entitled to priority as six
months claims under § 1171(b). Turning to the evidence, the bankruptcy court found the Claims satisfied
each element of that test. The Appellant argues, however, that the Claims are not entitled to priority under
§ 1171(b) for several reasons. First, he argues that interline freight claims of the type asserted by the Irving
Railroads are not eligible, as a matter of law, for priority under § 1171(b). Second, the Appellant contends the

82a
bankruptcy court applied incorrect legal standards and
made clearly erroneous findings of fact when it determined the Claims met the three criteria set forth in
Boston & Maine II.
II. WHETHER

THE BANKRUPTCY COURT ERRED IN FAILING

TO RULE THAT INTERLINE CHARGES ARE NOT ELIGIBLE,
AS A MATTER OF LAW, FOR PRIORITY UNDER § 1171(B)?

The Appellant argues that under post-Bankruptcy
Code law, interline charges are general unsecured
claims that are not eligible, as a matter of law, for priority under § 1171(b). In support, he relies on three decisions: Union Pac. R.R. Co. v. Moritz (In re Iowa R.R.
Co.), 840 F.2d 535 (7th Cir. 1988) (“Iowa Railroad”);
Howard v. Burlington N. & Santa Fe Ry. Co. (In re
Bangor & Aroostook R.R. Co.), 320 B.R. 226 (Bankr. D.
Me. 2005), aff’d, No. 06-141-B-H, 2007 WL 607867 (D.
Me. Feb. 23, 2007) (“Bangor & Aroostook”); and In re
McLean Indus. Inc., 103 B.R. 424 (Bankr. S.D.N.Y.
1989) (“McLean Industries”). The Appellant, however,
fails to acknowledge that the First Circuit in Boston &
Maine II specifically identified “interline claims” as one
type of claim which may be eligible for priority as a six
months claim if certain requirements are met. Moreover, the cases cited by the Appellant do not stand for
the proposition that interline charges are ineligible, as a
matter of law, for priority under § 1171(b).
In Iowa Railroad, the court addressed whether interline balances were trust funds which the debtor railroad was obligated to turn over to the interline carriers, or whether they were debt obligations owed to the
carriers. The Seventh Circuit reversed the lower
court’s ruling that the interline freight balances were
trust funds, holding instead that the relationship of the

83a
bankrupt railroad with its interline carriers was that of
debtor and creditor. In so holding, the court observed:
Interline operations have been common since
the founding of American roads, so the treatment of interline balances also is an old subject.
See Miltenberger v. Logansport Ry., 106 U.S.
286, 293, 1 S. Ct. 140, 27 L. Ed. 117 (1882). Until 1933, when Congress added § 77 to the old
Code, 11 U.S.C. § 205 (1976), all railroad bankruptcies were handled as equity receiverships
… The rules for equity receiverships permitted
courts to enhance the priority of debts incurred
as operating expenses within the six months
prior to insolvency or necessary to the continued operation of the debtor. See Miltenberger,
106 U.S. at 311. Courts applied these principles, without extended discussion, to interline
balances. This approach assumed that interline
balances are general, unsecured debts. Not until 1967 did any interline creditor argue that the
balances are “trust funds” or otherwise entitled
to priority exceeding that available to other
operating expenses.
840 F.2d at 537 (citations omitted).
The court’s reference to the historical assumption
that interline balances are “general, unsecured debts”
does not, however, establish a per se rule that those
debts are ineligible for priority under current case law.
Moreover, the court characterized interline balances as
“general, unsecured debts” when rejecting the assertion that they should be viewed as trust funds which
the debtor was obligated to immediately turn over to
the interline carriers. The Iowa Railroad court did not
address whether the unsecured debts owed to interline

84a
freight carriers might qualify for priority under
§ 1171(b), and a “per se” ineligibility rule is an unwarranted interpretation of the court’s discussion.
Similarly, the Bangor & Aroostook court did not
address whether interline freight claims qualify for priority under § 1171(b). In Bangor & Aroostook, the
trustee brought a preference action against a number
of interline carriers which, through setoffs exercised
within 90 days prior to the commencement of bankruptcy, had collected freight charges owed to them by
the debtor. The interline carriers moved for summary
judgment on the basis that the interline freight balances owed to them were trust funds. The court, relying in
large part on Iowa Railroad, held that the interline
carriers were “creditors, rather than trust beneficiaries” and denied their motions for summary judgment.
320 B.R. at 242. The court did not discuss whether the
interline claims at issue might qualify for priority under
§ 1171(b). The Appellant argues, however, that if the
Bangor & Aroostook court believed the interline creditors held priority six months claims, “the court would
have granted the interline creditor[s] summary judgment.” By declining to grant summary judgment, the
Appellant infers that the court determined the interline
creditors to have general unsecured claims as a matter
of law. Such an argument is based on mere conjecture
and lacks merit. Preference actions are rarely decided
on a motion for summary judgment due to their factual
nature, and, therefore, the Bangor & Aroostook court’s
failure to grant summary judgment is not support for a
rule that interline creditors were ineligible, as a matter
of law, to assert priority as six months claims.
The Appellant’s reliance on McLean Industries also
is misplaced. The debtor in McLean Industries was a
steamship company, not a railroad, and therefore, the

85a
court held, § 1171(b) did not apply to the claims in that
case. Thus, McLean Industries stands for the proposition that the Six Months Rule of priority does not apply
in a non-railroad chapter 11 case. The Appellant, however, focuses upon the following dicta in the opinion to
support his contention that in enacting the current version of the Bankruptcy Code, Congress “addressed and
rejected the priority that the Bankruptcy Court afforded the Irving Railroads.”
Congress, in enacting the Bankruptcy Code,
expressly rejected a proposal that debtor railroads be required to pay interline balances
stating that to do so would distort the central
bankruptcy principle of equality of treatment of
unsecured creditors.
103 B.R. at 426 (citation omitted).
From that statement, the Appellant concludes that
Congress rejected § 1171(b) priority for interline
freight claims. The Appellant’s interpretation, however, reflects his misreading of the legislative history
leading up to enactment of the Bankruptcy Code. The
relevant legislative history demonstrates Congress did
not reject a proposal establishing priority status for interline freight claims.16
16

“[C]ourts must presume that a legislature says in a statute
what it means and means in a statute what it says there.” Conn.
Nat’l Bank v. Germain, 503 U.S. 249, 253-54 (1992) (collecting authorities). Thus, if the statutory language is unambiguous, the
court need not resort to legislative history to construe the plain
text of the statute. Where statutory language is ambiguous, however, courts look to the statute’s “historical context, its legislative
history, and the underlying policies that animate its provisions” to
determine legislative intent. Marrama v. Citizens Bank of Mass.
(In re Marrama), 430 F.3d 474, 480 (1st Cir. 2005) (quoting United
States v. Yellin (In re Weinstein), 272 F.3d 39, 48 (1st Cir. 2001)),

86a
Prior to the enactment of the Bankruptcy Code,
there was a split among the circuits on the question of
whether a railroad reorganization trustee had authority, without first seeking court approval, to pay interline
balances when they came due under ICC rules. In In
re Penn Central Transp. Co., 486 F.2d 519 (3d Cir.
1973), and later in In re Penn Central Transp. Co., supra, the Third Circuit held that a trustee was not empowered to make immediate payment of interline balances absent authorization from the court. The Seventh Circuit came to the opposite conclusion in Chicago,
Rock Island & Pacific R.R. Co. v. Atchison, Topeka &
Santa Fe Railway Co., 537 F.2d 906 (7th Cir. 1976)
(“Rock Island”), holding that a trustee is bound by ICC
rules to pay interline claims immediately as they come
due, without the need for court authorization.
During the legislative process that resulted in the
passage of the Bankruptcy Reform Act of 1978, Pub. L.
95-598, Nov. 6, 1978, 92 Stat. 2643, the bankruptcy bill
introduced in the Senate, S. 2266, 95th Cong. (1977),
contained provisions which would have codified the
Seventh Circuit’s holding in Rock Island by providing
authority to a railroad’s trustee to pay all prebankruptcy interline balances without the need for
court approval. The House version of the bankruptcy
bill did not contain these provisions and in enacting the
Bankruptcy Code the Senate capitulated. As explained
by the Seventh Circuit in Boston & Maine Corp. v.
Chicago Pacific Corp., 785 F.2d 562 (7th Cir. 1986),
which the McLean Industries court relied upon when
making its statement regarding Congressional intent:
aff’d, 549 U.S. 365 (2007). As the body of case law reflects, the language of § 1171(b) is not unambiguous and, therefore, it is appropriate to look to the legislative history.

87a
Congress rejected our holding [in Rock Island]
that the rules of the ICC, rather than principles
of bankruptcy, should govern the question of
whether prereorganization per diem charges
should be paid immediately.
785 F.2d at 568-69 (emphasis added).
The provisions in the Senate bill rejected by Congress in enacting the Bankruptcy Code dealt only with
the issue of whether interline charges could be paid
immediately during the course of the bankruptcy, pursuant to ICC orders or rules, without the need for
bankruptcy court approval. See S. 2266, § 1169. They
did not address the priority to which such claims were
entitled under a plan of reorganization, which is the issue to be resolved in this appeal. That issue is addressed by § 1171(b), and the equity receivership rules
which Congress incorporated into § 1171(b).
For the reasons set forth above, we are not persuaded by the cases cited by the Appellant and conclude the bankruptcy court did not err when it failed to
rule that interline charges are not eligible, as a matter
of law, for priority as six months claims under § 1171(b).
Rather, the bankruptcy court correctly ruled that the
Claims could qualify for priority status under § 1171(b)
if they satisfied the three-part test set forth in Boston
& Maine II.
III. WHETHER

THE BANKRUPTCY COURT ERRED IN RULING

THAT THE CLAIMS SATISFIED THE BOSTON & MAINE II
TEST?

The Appellant does not challenge the bankruptcy
court’s determination that the Irving Railroads met
their burden of establishing the Claims were incurred
within the six-month period preceding the bankruptcy

88a
filing. Thus, the focus in this appeal is on the other criteria under the Boston & Maine II test—whether the
Claims were for a good or service, whether they represent current operating expenses necessarily incurred,
and whether the services were delivered by the Irving
Railroads with the expectation that they would be paid
for out of MMA’s current operating revenues of the
railroad, and not in reliance on MMA’s general credit.
A. Were the Claims for a good or service?
The Appellant argues the bankruptcy court erred
by failing to consider his argument that the Claims did
not involve a “good or service,” as required under the
Boston & Maine II test, and because the Irving Railroads failed to meet their burden of proof on this issue.
The Appellant argued below that the Irving Railroads
did not provide a “good or service” because MMA’s interchange of freight with the Irving Railroads involved
nothing more than permission for MMA to use Irving
Railroads’ tracks for a fee.
Although the bankruptcy court did not expressly
address the Appellant’s contention in its oral ruling, it
found that the Irving Railroads provided freight services to MMA that were more than mere use of their
tracks. The bankruptcy court specifically noted Mr.
Hansen’s testimony at the trial regarding the nature of
the freight services provided by the Irving Railroads as
they related to oil shipments, finding as follows:
Beginning in 2012, the amounts owed by MMA
for interline freight services provided by the
claimant railways began to exceed the amounts
owed by Irving to MMA. As Mr. Hansen put it
at trial, “Well, the shipment of oil would have
been coming out of the Dakotas by [CP]. They

89a
would hit MMA’s line, They would interchange
with MMA, Then the oil would come—the train
would come down through until it hit NB
Southern [NBSR]’s line, NB Southern [NBSR]
would transport it from then into St. John,
New Brunswick.”
(emphasis added). Thus, the court expressly acknowledged that the Irving Railroads provided interline
freight services to MMA and, specifically, that the Irving Railroads transported freight into St. John, New
Brunswick. The bankruptcy court also recognized Mr.
Simpson’s testimony at the trial regarding “the freight
services provided to MMA.” Mr. Simpson explained
that, with respect to freight carried by MMA to the interchange point with the Irving Railroads, the interchange of freight traffic involved the de-coupling of
freight cars from MMA’s locomotives and connecting
them to the Irving Railroads’ locomotives, which then
carried the freight cars to their final destination. The
bankruptcy court specifically found that Mr. Simpson’s
“persuasive testimony” regarding the freight services
provided to MMA was uncontroverted.
In his brief on appeal, the Appellant reasserts his
contention that the freight services which were the basis for the Claims “consisted largely, if not entirely, of
use of the track of the Irving Railroads by MMA.” He
does not, however, point to any evidence to support his
contention. Rather, he argues that the bankruptcy
court erred because the Claims originated, in part, from
MMA’s “role as collection agent for the Irving Railroads and its subsequent failure to remit amounts collected,” rather than from any good or service provided
to MMA.

90a
Although the bankruptcy court did not specifically
address this argument in its oral ruling, the issue was
squarely determined by the bankruptcy court when it
found, based on the evidence presented at the hearing,
that the Irving Railroads provided freight services to
MMA in accordance with the agreement between the
parties. The record supports the bankruptcy court’s
ruling.
In considering the Appellant’s argument that the
bankruptcy court erred in this finding, we review how
railway freight shipping operates. “The nation’s railroads function in many ways as a single system.” In re
Penn Cent. Transp. Co., 486 F.2d at 521. The Bangor
& Aroostook court described the system as follows:
Shipping freight any distance by rail generally
requires the services of several railroad lines.
Shipments come and go throughout the country, originating and traveling on multiple railroads. Shippers routinely pay one carrier (the
“collecting carrier”) a charge for the entire
journey. That amount includes the charges of
each railroad along the way. Thus, with regard
to inter-line shipments, each railroad may be at
once the collecting carrier for some, receiving
funds and accruing obligations to participating
carriers; and for others a participating carrier,
accruing rights to freight charges for shipments which travel over its rails.
320 B.R. at 228. Under this system, “[e]ach interline
freight shipment triggers charges attributable to the
services provided by each of several railroads.” Id. at
231. “The collecting railroad takes in the entire fare—
and owes prescribed portions of it to each participating
carrier.” Id. “That there are multiple shipments and

91a
multiple parties is of no moment. The circumstances
reduce to sets of bilateral relationships in which one
railroad owes freight charges to another, and the second owes freight charges back to the first.” Id.
The bankruptcy court found that the ISS provides
a central clearing house for all participating railroads
involved in the interchange of freight traffic among
multiple rail carriers to settle accounts receivable and
accounts payable arising from the interchange of such
traffic. Because the Irving Railroads were not members of the ISS, they needed MMA to serve as their
“front man,” not only for the purpose of assessing and
collecting the total amount of freight charges that otherwise would have been paid directly to the Irving
Railroads for its transportation services, but also to negotiate freight rates, make contracts, and provide quotations for services to be rendered. The Commercial
Agreement provides clear evidence that the Irving
Railroads were providing “transportation services” to
MMA. The stated purpose of the Commercial Agreement was “to establish the hauling of freight for MMA.”
Moreover, Section 2 set forth the agreement between
the parties regarding Irving Railroads’ “Performance
of Transportation Services”:
The parties agree that from and after the Effective Date, [the Irving Railroads] shall move
loaded freight cars and associated empty cars
between points located on its lines or reached
by it under Canadian interswitch rules and
Brownville Junction at rates as set out in this
Agreement. MMA shall act as the interline tariff carrier on a junction settlement basis. By
“junction settlement basis” the parties mean
that MMA shall negotiate through rates and
make contracts and provide quotations, and

92a
shall be responsible for car supply to the extent
requested by NB[R]S and reasonably available
from MMA and in rail cars customarily supplied by railroad carriers, all in accordance with
the provisions of this Agreement. MMA shall
continue to render one freight bill, and assess
and collect the total amount of freight charges
… and remit the portion pertaining to [the Irving Railroads’] transportation services to [the
Irving Railroads] in accordance with the procedures in this Agreement.
(emphasis added). Thus, although MMA acted, in part,
as the billing railroad and, therefore, collected payments either directly from the customer or from the
ISS, that does not change the nature of the services
provided by the Irving Railroads to MMA.
Based on the foregoing, the record supports the
bankruptcy court’s finding that the Irving Railroads
provided services to MMA by shipping freight across
its railway lines pursuant to its agreement with MMA,
and, therefore, the “freight charges,” which are the basis of the Claims, all originated from the Irving Railroads’ service of shipping freight pursuant to its
agreement with MMA. Therefore, the bankruptcy
court did not err in finding that the Claims satisfied
this requirement of the Boston & Maine II test.
B. Were the Claims for “current operating expenses necessarily incurred” by MMA?
To qualify for priority under § 1171(b), the Claims
must be for current operating expenses necessarily incurred by MMA in connection with its rail operations.
The Appellant asserts an operating expense is “necessary” for purposes of § 1171(b) “when its non-payment

93a
would cause the debtor railroad to cease, or clearly risk
cessation of, operations.” Thus, the Appellant maintains, claims satisfy this prong of the § 1171(b) test if
they arise from goods or services that are “indispensable to the continued performance of the transportation
service.” The Appellant argues the bankruptcy court
applied an improper legal standard because it held that
the Claims need only be for “current operating expenses,” rather than considering whether the services provided by the Irving Railroads were “indispensable” to
MMA’s business as a going concern. And, he contends,
the services Irving Railroads provided to MMA were
not “necessary” or “indispensable” because the Irving
Railroads’ refusal to interchange freight with MMA
would not have shut down MMA’s rail operations, and
because they were required by ICC rules to accept the
interchange of traffic from MMA.
As to the applicable legal standard, the Appellant’s
articulation of an “end of the world” or “doomsday”
standard appears to be at odds with that articulated by
the First Circuit in Boston & Maine II. In Boston &
Maine II, the First Circuit indicated the test is not
whether the individual claimant has the power to shut
down the operation of the railroad, but whether the
claim falls within a “class of claims” which are indispensable to the operation of the business. 634 F.2d at 137778. In addressing the Supreme Court’s decision in Miltenberger, which held that interline freight claims were
eligible for immediate payment, the First Circuit observed:
The [Miltenberger] Court’s rationale excludes
the inference that only those creditors are entitled to priority of payment who demand immediate payment as a condition of continuing to
supply a service or commodity of which they

94a
are monopolists. The Court was defining the
classes of claims payment of which was indispensable to the business of the [rail]road and
which, “unless the receiver was authorized to
provide for them at once, the business of the
[rail]road would suffer great detriment.” [106
U.S.] at 311.
Boston & Maine II, 634 F.2d at 1377 (emphasis added)
(footnote omitted) (citation omitted).
The First Circuit went on to identify interline
claims as one of the “classes of claims” that qualify for
priority:
The [Miltenberger] Court’s depiction of the disastrous consequences of failing to pay labor
claims—a
work
stoppage—or
interline
claims—a stoppage of traffic interchange—is
directed to restricting the class of claims entitled to priority of payment to claims for those
goods and services that are indispensable to
the continued performance of the transportation service. … The test is not whether the
claimant has the naked power to exert economic duress, but whether the expenses have the
characteristics of those that the receiver pays
from revenue as expenses of administration.
…
Id. at 1377-78 (emphasis added) (footnote omitted) (citation omitted). Thus, the First Circuit has specifically
recognized that the interchanging of freight among
railroads is indispensable to the continued performance
of a railroad’s operations and, therefore, that interline
claims such as those asserted in the Claims fall within
the “class of claims” which are entitled to priority under § 1171(b). As a result, we conclude the bankruptcy

95a
court did not err by declining to adopt the Appellant’s
“doomsday” approach to determining whether the
Claims were for “current operating expenses necessarily incurred” by MMA.
The bankruptcy court found, based on the testimony of Mr. Hansen and Mr. Simpson, as well as the
statements in the Disclosure Statement, that the Irving
Railroads met their burden of establishing that the
Claims satisfied the “necessity” element of the Boston
& Maine II test. The evidence supports the bankruptcy court’s finding. As the bankruptcy court noted, in
the Disclosure Statement, the Appellant acknowledged
the importance of the rail route serviced by MMA and
the Irving Railroads as being “[t]he shortest rail transportation route between Maine and Montréal and a critical rail artery between Saint John, New Brunswick
and Montréal.” That route provided outlets for, among
others, “major producers of paper, lumber, wood and
agricultural products in eastern and northern Maine,”
and “[i]n-bound transportation for chemicals and other
products used by paper producers and consumers in
Maine.” Thus, there was a public interest in continued
rail service along this route. The bankruptcy court also
found that the evidence established the importance of
that “critical rail artery” to MMA’s business operations.
As the Appellant explained in the Disclosure Statement:
In the two years leading up to the commencement of the Chapter 11 case, the Debtor had
benefited from the dramatic increased use of
trains to move oil from the central and western
regions of the United States, specifically, the
Bakken oil fields in North Dakota, to refineries
in the east. United States and Canadian oil
drillers were producing oil faster than new

96a
pipelines could be built, and trains were needed
to transport crude oil to refiners. Prior to the
Derailment, the Debtor had been hauling about
500,000 barrels of oil monthly through Québec
and Maine. Due to this business, the Debtor
enjoyed a significant increase in gross revenue,
and, for a short time, positive net operating income, although needed capital expenditures
remained deferred and unfunded.
As the bankruptcy court noted, Mr. Simpson confirmed
the importance of the rail artery between Montréal and
Saint John, New Brunswick to MMA, characterizing it
as the most direct, economical and practical route for
the shipment of oil to refineries in Saint John, New
Brunswick.
The Appellant argues, however, that the services
provided by the Irving Railroads were not really necessary to MMA’s operations, because if the Irving Railroads refused to accept an interchange of traffic from
MMA, there were alternate routes that could have been
pursued. The bankruptcy court rejected this argument,
however, as the evidence showed that without being
able to interchange traffic with the Irving Railroads,
MMA lost essentially the entire St. John, New Brunswick market, which is where the oil that was being produced in North Dakota was being transported to over
several years, prior to the derailment, and which was a
source of tremendous revenue for MMA. If MMA
would have been forced to choose alternative routes,
they would not have been competitive in terms of being
able to successfully obtain the business from the shippers in North Dakota, and they would have lost that
particular business. There simply was no practical way
for them to deliver the oil to St. John, New Brunswick
without interchanging with the Irving Railroads. This

97a
would have had a substantial negative impact on
MMA’s operations. The bankruptcy court also pointed
to testimony at the hearing which established that the
inability of MMA to interchange traffic with the Irving
Railroads would have had a significant adverse impact
on MMA’s operations, including, among other things,
the loss of business with the Irving Paper Companies,
which were among MMA’s largest customers, and a
substantial reduction in revenue generated from the
shipment of oil to the refineries in Saint John, New
Brunswick.
The Appellant also argues that the Claims were not
“necessary” because the Irving Railroads were required under applicable provisions of federal transportation law to accept the interchange of traffic from
MMA. As the First Circuit remarked in Boston &
Maine II, “the interlining of freight cars is mandatory
under the Interstate Commerce Act, 49 U.S.C.
[§§] 1(4), (10), (11), (14), (15), and (17).” 634 F.2d at
1362. Notwithstanding the requirement under the Interstate Commerce Act that railroads interline freight
cars with Boston & Maine Corp., the First Circuit held
their per diem claims were, nonetheless, entitled to priority as six months claims. Thus, the Appellant’s argument that the Claims are not entitled to priority status because the Irving Railroads were required to accept the interchange of freight traffic is unpersuasive.
Moreover, the inability of a railroad to refuse to interchange freight traffic under the ICC underscores how
essential the interchange of freight traffic is to the railroad freight shipping system.
In light of the foregoing, we conclude the bankruptcy court applied the correct legal standard for determining whether the Claims were for operating expenses necessarily incurred in connection with MMA’s

98a
rail operations, and the bankruptcy court did not err in
determining that the Claims satisfied this part of the
test.
C. Did the Irving Railroads deliver services to
MMA with the expectation they would be paid
from MMA’s current operating revenue rather
than relying on MMA’s creditworthiness?
The Appellant contends the bankruptcy court applied an improper legal standard in determining that
the Claims satisfied this part of the § 1171(b) test. According to the Appellant, “creditors with ‘special security arrangements’ do not benefit from the protections
afforded six months creditors because the presence of
such arrangements negates any possibility of reliance
only upon immediate cash flow.” Therefore, he argues,
the alleged “triangular setoff” arrangement between
the parties establishes, as a matter of law, that the Irving Railroads provided services to MMA in reliance
upon MMA’s general creditworthiness rather than with
the expectation that payment would be made from current operating revenue. He maintains the bankruptcy
court applied the wrong standard because it held that
to disqualify a claim from § 1171(b) priority status, the
“special security arrangement” must qualify as a security interest under the Uniform Commercial Code. The
Appellant further argues that, based upon the application of the wrong legal standard, the bankruptcy court
erred in finding that the Irving Railroads provided services to MMA with the expectation that payment would
be made from current operating revenue, rather than in
reliance on MMA’s general credit.
Again we turn to Boston & Maine II for guidance
on the standard to be applied. The First Circuit articulated the standard as follows:

99a
[W]hen the time comes to determine membership in the class it will be for the reorganization
court to determine … whether the nonpayment reflects an intentional extension of
credit of the railroad, or the intervention of the
reorganization petition before expiration of the
ordinary billing and payment period, or some
noncontractual indulgence or inadvertence on
the part of the claimant, or deferment of payment on the part of the railroad; and whether,
if the transaction giving rise to the claim had
any credit term, it was compatible with a general expectation of payment from current receipts or indicated reliance on the railroad’s
general credit.
Id. at 1379-80 (footnote omitted).
The Appellant asserts, however, the bankruptcy
court went further, and held, as a matter of law, that
the only security arrangement that would disqualify a
creditor from the protection of § 1171(b) is one in which
“the would-be 1171(b) creditor enjoys a ‘commercial
credit[] security interest[].’ ” In advancing this argument, the Appellant has misrepresented the bankruptcy court’s ruling. In ruling that the Irving Railways
had met their burden of establishing that services were
provided with the expectation that they would be paid
from current operating revenues, as opposed to MMA’s
general creditworthiness, the bankruptcy court singled
out those services related to oil shipments interchanged
by MMA with the Irving Railroads, which were not
part of the payment swap arrangement, and stated:
Testimony shows that, in order to keep the interchange of services going between the parties, claimant railways agreed to wait for the

100a
ISS system to process payment and then to
pay—the ISS to pay them to MMA before
MMA would pay the claimant railways. I do
not conclude that this was reliance on MMA’s
credit, nor do I conclude that this was some
sort of special security arrangement which excepts the claimant railways from the protection
of the six-months rule. I didn’t find anything in
that deal or that arrangement that had incorporated common conditions of the commercial
credit, security interests, and the like.
The arrangement the bankruptcy court was discussing
was completely separate from the payment swap arrangement that the Appellant characterizes as a “triangular setoff.” The bankruptcy court simply found,
based on the evidence presented, that nothing in the
agreement of the parties covering oil shipments incorporated characteristics of general credit extension or
special security arrangements. Thus, the bankruptcy
court did not hold as a matter of law that only an Article 9 security interest would disqualify a claim from receiving § 1171(b) priority and, therefore, applied the
correct legal standard.
The Appellant also argues that the bankruptcy
court ignored the Irving Railroads’ extension of credit
and clearly erred in finding that they relied on MMA’s
current operating revenues. The Appellant contends
the Irving Railroads knowingly extended credit to
MMA and then mitigated the credit risk they willingly
assumed by unilaterally establishing a system of triangular setoffs using payables owed to MMA by the Irving Railroads and Irving Paper Companies as collateral to secure the payment of MMA’s obligations to the
Irving Railroads. He also argues the Irving Railroads
relied entirely on that collateral and not on MMA’s cash

101a
flow in securing such payments until they found themselves “undercollateralized,” at which time they agreed
to an additional payment arrangement pursuant to
which MMA would collect amounts through the ISS
system for their benefit and remit them on agreed credit terms.
Contrary to the Appellant’s assertions, the bankruptcy court’s findings are supported by the record.
The evidence presented at the hearing showed that,
from the inception of their business relationship with
MMA, the Irving Railroads were not willing to rely on
the creditworthiness of MMA, which was the successor
to the bankrupt Bangor & Aroostook railroad. Mr.
Hansen testified that the Irving Railroads did not in
any way rely on MMA’s general creditworthiness, stating:
Q: Mr. Hansen, in providing freight services in
connection with the interchange of traffic with
the MMA did the Irving [R]ailroads rely upon
MMA’s general creditworthiness?
A: Absolutely not.
Q: What did the Irving [R]ailroads rely upon?
A: We relied on them being paid out of the ISS
system, which I felt was secure, and that meant
I would be paid shortly thereafter.
Q: And were you secure that they could rely
upon receiving money from the ISS system?
A: That is correct.
The evidence showed MMA acquired its assets
from Bangor & Aroostook out of bankruptcy, and there
was a troubled history with respect to that railroad.
Mr. Hansen testified that, in order to avoid taking any

102a
credit risk, he created a “swap” arrangement with
MMA that involved the Irving Paper Companies, which
were affiliated with the Irving Railroads and were
among the largest customers of MMA. Pursuant to this
arrangement, the parties, on a weekly basis, would
simultaneously exchange wire transfers of the amounts
each owed to the other. Often, the payments for freight
services that MMA owed the Irving Railroads actually
involved freight from the Irving Paper Companies that
was being delivered from their mills in Canada to other
destinations. With this arrangement, he stated, the Irving Railroads were not relying on the general creditworthiness of MMA. Rather, the source of the payment
for the Irving Railroads was essentially the cash that
was being paid to MMA by the Irving Paper Companies. Moreover, Mr. Hansen testified that, although the
Irving Railroads may have had the ability to set off the
amounts owed to MMA from the amounts MMA owed
to it, they never did so.
Thus, the bankruptcy court’s findings are supported by the record.
CONCLUSION
For the reasons set forth above, we conclude the
bankruptcy court did not err in ruling that the Claims
qualified as six months claims entitled to priority under
§ 1171(b). Thus, we AFFIRM the Order.

103a
APPENDIX C
UNITED STATES BANKRUPTCY COURT
DISTRICT OF MAINE
Case No.: 13-10670
Chapter 11
IN RE:
MONTREAL MAINE
&
ATLANTIC RAILWAY, LTD.,
Debtor.
Filed February 26, 2016
ORDER SUSTAINING IN PART AND
OVERRULING IN PART TRUSTEE’S OBJECTION
TO PROOFS OF CLAIM FILED BY NEW
BRUNSWICK SOUTHERN RAILWAY COMPANY
LIMITED AND MAINE NORTHERN RAILWAY
COMPANY LIMITED ON THE BASIS THAT
CERTAIN OF SUCH CLAIMS ARE DUPLICATIVE
OF OTHERS, AND SUCH OTHERS ARE
IMPROPERLY ASSERTED AS
ADMINISTRATIVE AND/OR PRIORITY CLAIMS
This matter came before the Court on the Trustee’s
Objection to Proofs of Claim Filed by New Brunswick
Southern Railway Company Limited and Maine
Northern Railway Company Limited on the Basis that
Certain of Such Claims Are Duplicative of Others, and
Such Others Are Improperly Asserted as Secured
and/or Priority Claims (the “Objection”) (Docket En-

104a
try “DE” 1826) filed by Robert J. Keach, the chapter 11
trustee (the “Trustee”) of Montreal Maine & Atlantic
Railway, Ltd. (the “Debtor” or “MMA”), in relation to
(a) Proofs of Claim No. No. 242-1 (the “MN Duplicate
Claim”) and 257-1 (“Claim 257”) filed by Maine Northern Railway Company Limited (“MN Railway”) and (b)
Proofs of Claim No. 243-1 (“NB Duplicate Claim,” and
together with the MN Duplicate Claim, the “Duplicate
Claims”) and 259-1 (“Claim 259,” and together with
Claim 257, the “Asserted 1171(b) Claims”) filed by New
Brunswick Southern Railway Company Limited (“NB
Railway”, and together with MN Railway, the “Claimant Railways”). After such notice and opportunity for
hearing as was required by the United States Bankruptcy Code (the “Code”), the Federal Rules of Bankruptcy Procedure, and the Local Bankruptcy Rules for
the District of Maine, and after due consideration of,
among other things, the Objection, the Response of the
Claimant Railways to the Objection (DE 1855), the
Trustee’s Reply (DE 1878), the Stipulations of the parties (the “Stipulations”) (DE 1877), the admissions and
other filings of the parties, and the testimony and documentary evidence presented at the November 20,
2015 evidentiary hearing held in this matter (the
“Hearing”); and for the reasons set forth on the record
by the Court on February 5, 20161, the Court made certain findings of fact and conclusions of law in accordance with Fed. R. Bankr. P. 7002. Several of those factual findings and conclusions of law are as follows2:

1
2

A transcript of the hearing is set forth at DE 1955.

This Order does not enumerate all of the factual findings and
conclusions of law set forth at the Hearing and no special significance is intended by that fact.

105a
A. Pursuant to 28 U.S.C. §§ 157(a) and 1334(b),
and Rule 83.6 of the Local Rules of the United States
District Court for the District of Maine, this Court has
jurisdiction over the Objection, including but not limited to, the Asserted 1171(b) Claims and the Duplicate
Claims.
B. This is a core proceeding pursuant to 28 U.S.C.
§ 157(b)(2), and the Court has constitutional authority
to enter judgment in this matter.
C. Pursuant to the Stipulations, the only issue addressed at the Hearing was whether the Asserted
1171(b) Claims claims qualify as “six-month” claims entitled to priority under 11 U.S.C. §1171(b) of the Code.
If so, the amount of such claims would be determined at
a subsequent hearing, if required.
D. Based upon the unique facts of this matter and
the Court’s analysis of the equities asserted by MMA,
on the one hand, and the Claimant Railways, on the
other, the Claimant Railways met their burden of establishing that the Asserted 1171(b) Claims qualify as
claims that are entitled to priority under §1171(b) of the
Code because:
(1) the Asserted 1171(b) Claims represent current operating expenses that were necessarily incurred by MMA in connection with its on-going operations;
(2) the Asserted 1171(b) Claims were incurred
within six months prior to the commencement of
this case; and
(3) the services that are the subject of the Asserted 1171(b) Claims were provided to MMA with
the expectation that they would be paid for out of

106a
the current operating revenues of MMA, and not in
reliance on its general creditworthiness.
For these reasons, as well as those set forth on the
record at the Hearing, it is hereby ORDERED, ADJUDGED, and DECREED that:
1. The Objection is sustained in part and overruled in part, as set forth herein.
2. The Duplicate Claims shall be disallowed in
their entireties and expunged from the Debtor’s claims
register.
3. The Asserted 1171(b) Claims, to the extent allowed, are afforded priority status under § 1171(b).
The amount of the Asserted 1171(b) Claims is not determined by this Order, and thus those Asserted
1171(b) Claims are not allowed in any amount at this
time. The Trustee’s rights to object to the amount of
the Asserted 1171(b) Claims are fully reserved.
4. Notwithstanding the minute entry at DE 1947,
this Order constitutes the Court’s ruling and judgment
on the matters read into the record on February 5,
2016. The time period within which parties must appeal this Order in accordance with the Bankruptcy
Rules thus runs from the date hereof.
Dated: February 26, 2016

/s/Peter G. Cary
Peter G. Cary
Chief Judge, United
States Bankruptcy
Court District of Maine

107a
APPENDIX D
UNITED STATES BANKRUPTCY COURT
DISTRICT OF MAINE
No. 13-10670
MONTREAL MAINE &
ATLANTIC RAILWAY LTD.
Case Type:
Case Number:
Case Title:
Audio Date\Time:
Audio File Name:
Audio File Size:
Audio Run Time:

bk
13-10670
Montreal Maine & Atlantic Railway Ltd.
2/5/2016 9:02:00 AM
13-10670_252016-90200-AM.mp3
10039 KB
[00:27:53] (hh:mm:ss)

Help using this file:
An audio file is embedded as an attachment in this
PDF document. To listen to the file, click the Attachments tab or the Paper Clip icon. Select the
Audio File and Click Open.
MPEG Layer-3 audio coding technology from
Fraunhofer IIS and Thomson.
This digital recording is a copy of a court proceeding and is provided as a convenience to the public.
In accordance with 28 U.S.C. § 753 (b) “[n]o transcripts of the proceedings of the court shall be
considered as official except those made from the
records certified by the reporter or other individual designated to produce the record.”

109a
APPENDIX E
UNITED STATES BANKRUPTCY COURT
DISTRICT OF MAINE
Bk. No. 13-10670
Chapter 11
IN RE: MONTREAL MAINE & ATLANTIC RAILWAY, LTD.,
Debtor.
Filed September 6, 2018
ORDER (I) OVERRULING THE AMENDED
OBJECTION OF THE ESTATE REPRESENTATIVE
TO THE PROOFS OF CLAIM FILED BY NEW
BRUNSWICK SOUTHERN RAILWAY COMPANY
LIMITED AND MAINE NORTHERN RAILWAY
COMPANY, [DOCKET NO. 2313], (II)
DETERMINING THE ALLOWED AMOUNTS OF
THE PRIORITY AND GENERAL UNSECURED
CLAIMS OF NEW BRUNSWICK SOUTHERN
RAILWAY COMPANY LIMITED AND MAINE
NORTHERN RAILWAY COMPANY, AND (III)
DETERMINING AMOUNTS OWED BY NEW
BRUNSWICK SOUTHERN RAILWAY COMPANY
LIMITED AND MAINE NORTHERN RAILWAY
COMPANY TO THE DEBTOR
This matter having come before the Bankruptcy
Court (the “Court”) on the Amended Objection of the
Estate Representative to Proofs of Claim Filed by New

110a
Brunswick Southern Railway Company Limited and
Maine Northern Railway Company on the Basis That
Certain of Such Claims Are Duplicative of Others, and
Such Others Are Improperly Asserted as Administrative and/or Priority Claims, in an Inaccurate Amount,
and Subject to Disallowance Under Bankruptcy Code
Section 502(d) [Docket No. 2313] (the “Amended Objection”)1 filed by Robert J. Keach, the estate representative (“Estate Representative”) for the post effective date estate of Montreal Maine & Atlantic Railway, Ltd., (the “Debtor”) related to his objection
[Docket No. 1826] to (a) Proof of Claim 257-1 (“MNR
Claim”) filed by Maine Northern Railway Company
(“MNR”) and (b) Proof of Claim No. 259-1 (“NBSR
Claim,” and together with the MNR Claim, the “Irving
Claims”) filed by New Brunswick Southern Railway
Company Limited (“NBSR,” and together with MNR,
the “Irving Railways”); and after such notice and opportunity for hearing as was required by the United
States Bankruptcy Code, the Federal Rules of Bankruptcy Procedure, and this Court’s local rules, and after
due consideration of: the Amended Objection [Docket
No. 2313], the response of the Irving Railways to the
Amended Objection [Docket No. 2323], the Estate Representative’s Reply in Support of the Amended Objection [Docket No. 2351], the Motion of the Irving Railways for (I) Application of Judicial Estoppel and (II)
Partial Summary Judgment [Docket No. 2399], the Estate Representative’s Motion to Strike and Opposition
to New Brunswick Southern Railway Company Limited and Maine Northern Railway Company's Motion
for (I) Application of Judicial Estoppel and (II) Partial
1

Capitalized terms not defined in this Order shall have the
meanings ascribed to such terms in the Amended Objection.

111a
Summary Judgment [Docket No. 2404], the Estate
Representative’s Post Trial Brief [Docket No. 2436],
the Post Trial Brief of the Irving Railways [Docket No.
2437], the Reply of the Irving Railways to the Estate
Representative’s Post Trial Brief [Docket No. 2440],
the Response of the Estate Representative to the Post
Trial Brief of the Irving Railways [Docket No. 2443],
the Stipulations with Regard to Trustee’s Objection to
Proofs of Claim Filed by New Brunswick Southern
Railway Company Limited and Maine Northern Railway Company Limited [Docket No. 1877] (the “First
Set of Stipulations”), the Second Set of Stipulations
with Regard to Trustee’s Amended Objection to Proofs
of Claim Filed by New Brunswick Southern Railway
Company Limited and Maine Northern Railway Company [Docket No. 2387] (the “Second Set of Stipulations”), the Trustee’s Revised First Amended Plan of
Liquidation Dated July 15, 2015 [Docket No. 1534] (the
“Plan”), the Revised First Amended Disclosure Statement for the Trustee’s Plan of Liquidation Dated July
15, 2015 [Docket No. 1535] (the “Disclosure Statement”), the testimony and documentary evidence presented at the November 20, 2015 evidentiary hearing
held in this matter, this Court’s oral ruling on February
5, 2016, this Court’s Order memorializing its oral ruling
dated February 26, 2016 [Docket No. 2034] (the “Initial
Court Order”), the opinion of the United States Bankruptcy Appellate Panel for the First Circuit (the
“BAP”) dated October 21, 2016 affirming the Initial
Court Order on all points (“BAP Opinion”), and the
testimony and documentary evidence presented at the
November 8, 2017 evidentiary hearing held in this matter; and for the reasons set forth on the record by the
Court at the hearing on August 22, 2018, the transcript

112a
of which is incorporated herein by reference, THE
COURT HEREBY FINDS as follows:
A. Pursuant to 28 U.S.C. §§ 157(a) and 1334(b),
and Rule 83.6(a) of the Local Rules of the United States
District Court for the District of Maine, this Court has
jurisdiction over the Irving Claims, and the Estate
Representative’s Amended Objection thereto.
B. This is a core proceeding pursuant to 28 U.S.C.
§ 157(b)(2), and the Court has constitutional authority
to enter judgment in this matter.
C. In the Initial Court Order, this Court determined that the Irving Railways’ claims for amounts
owed for freight services provided to the Debtor within
six (6) months prior to the Petition Date were entitled
to priority under section 1171(b) of the Bankruptcy
Code, but reserved for future determination the allowed amount of such claims.
D. The Estate Representative’s Amended Objection and the Parties’ various submissions presented the
following issues for resolution by the Court:
i. whether the Court should reconsider the
Initial Court Order, in which the Court rejected the
Estate Representative’s contention that the cash
swap arrangement among the Debtors, the Irving
Railways and the Irving Paper Companies disqualified the Irving Railways’ interline freight claims
from being accorded priority under section 1171(b)
of the Bankruptcy Code;
ii. whether the NBSR Claim should be disallowed in its entirety because the amounts claimed
by NBSR are obligations of Montreal Maine & Atlantic Canada Co. (“MMA Canada”) rather than of
the Debtor;

113a
iii. whether approximately 57% of the amount
claimed by NBSR was actually owed to Eastern
Maine Railway Company (“EMR”), and is not allowable because EMR did not file a proof of claim in
the Debtor’s chapter 11 case;
iv. whether MNR is entitled to priority treatment for $22,952.15 in charges for “running rights”
incurred within six months prior to the Petition
Date;
v. whether MNR owes the Debtor $64,809.02
for freight services, in addition to the $265,367.66
that the Parties stipulated MNR owes to the Debtor; and
vi. whether NBSR owes the Debtor $626.92,
in addition to the $734.90 that the Parties stipulated NBSR owes to the Debtor.
E. With respect to the Estate Representative’s
request that the Court reconsider the Initial Court Order, the Estate Representative failed to provide a sufficient basis for such request. The evidence cited by the
Estate Representative was consistent with previous
evidence presented to the Court and with the Court’s
previous finding that the Debtor and NBSR reached an
agreement in mid-2012 to carve out oil shipments from
the cash swap arrangement, and require the Debtor,
instead, to pay NBSR the freight charges associated
with oil shipments promptly upon the Debtor’s receipt
of funds from the Interline Settlement System. The
cash swap arrangement, which continued for non-oil
shipments up to the time of the derailment at Lac Megantic, Quebec, and pursuant to which funds collected
by the Debtor from the Irving Paper Companies provided the Debtor with the cash used to pay the Irving
Railways for such shipments, did not disqualify any of

114a
the Irving Railways’ interline freight claims from being
accorded priority under section 1171(b) of the Bankruptcy Code.
F. All of the claims asserted by NBSR in Proof of
Claim 259-1 are obligations of the Debtor that are owed
to NBSR.
G. The claims asserted by NBSR in Proof of Claim
259-1 were not obligations of MMA Canada.
H. No portion of the claims asserted by NBSR in
Proof of Claim 259-1 were obligations owed by the
Debtor to EMR.
I. As agreed by the Parties in the Second Set of
Stipulations, of the total amount asserted in the NBSR
Claim, (a) $2,020,719.59 is owed for freight services and
(b) $1,952.27 is owed for car repairs, in each case for
services provided to the Debtor during the six (6)
month period prior to the Petition Date. Thus, the total
amount of the NBSR Claim for services provided to the
Debtor during the six (6) month period prior to the Petition Date is $2,022,671.86. The remaining balance of
the NBSR Claim in the amount of $141,799.44 is owed
for pre-petition services that were provided to the
Debtor more than six (6) months prior to the Petition
Date.
J. As agreed by the Parties in the Second Set of
Stipulations, of the total amount asserted in the MNR
Claim, (a) $143,071.70 is owed by the Debtor to MNR
for freight services and (b) $1,205.04 is owed by the
Debtor to MNR for car inspection, in each case for services provided to the Debtor during the six (6) month
period prior to the Petition Date.
K. The Debtor is also indebted to MNR in the
amount of $22,952.15 for charges relating to “running

115a
rights” that accrued within six (6) months prior to the
Petition Date.
L. The total amount of the MNR Claim for services provided to the Debtor during the six (6) month
period prior to the Petition Date is $167,228.89. The
remaining balance of the MNR Claim in the amount of
$187,872.30 is owed for pre-petition services that were
provided to the Debtor more than six (6) months prior
to the Petition Date.
M. Based upon the agreement of the Parties in the
Second Set of Stipulations, and the evidence presented
at trial, MNR is indebted to the Debtor for freight services provided by the Debtor to MNR in the amount of
$275,247.99. The Estate Representative failed to sustain his burden of establishing that the additional
amount he claimed is owed by MNR to the Debtor (i.e.,
$54,928.69) was, in fact, due and owing.
N. Based upon the agreement of the Parties in the
Second Set of Stipulations, and the evidence presented
at trial, NBSR is indebted to the Debtor for freight
services provided by the Debtor to NBSR in the
amount of $1,361.82.
Based upon the foregoing, it is hereby ORDERED,
ADJUDGED, and DECREED as follows:
1. The Estate Representative’s request for reconsideration of the Initial Court Order is denied.
2. The Estate Representative’s Amended Objection to the NBSR Claim and the MNR claim is overruled.
3. Pursuant to 11 U.S.C. § 1171(b), NBSR is
granted an allowed priority claim in the amount of
$2,022,671.86.

116a
4. The remaining balance of the NBSR Claim in
the amount of $141,799.44 is allowed as a general unsecured claim.
5. Pursuant to 11 U.S.C. § 1171(b), MNR is granted an allowed priority claim in the amount of
$167,228.89.
6. The remaining balance of the MNR Claim in
the amount of $187,872.30 is allowed as a general unsecured claim.
7. NBSR was indebted to the Debtor as of the Petition Date in the amount of $1,361.82.
8. MNR was indebted to the Debtor as of the Petition Date in the amount of $275,247.99.
9. Payment of the Irving Railways’ § 1171(b) priority claims shall be made in accordance with this
Court’s Order Confirming Trustee’s Revised First
Amended Plan of Liquidation Dated July 15, 2013 and
Authorizing and Directing Certain Actions in Connection Therewith [Docket No. 1801] (the “Confirmation
Order”). Pending such payment, funds previously set
aside pursuant to the Confirmation Order as security
for such claims shall continue to secure the estate’s obligation to make such payment.
10. Notwithstanding the minute entry by the
Court on August 22, 2018 [Docket No. 2475], this Order
constitutes the Court’s final judgment on the matters
addressed in the Court’s oral ruling on August 22, 2018
and is a final Order overruling the Estate Representative’s Amended Objection and resolving all issues
raised in connection therewith. The time period within
which parties may appeal this Order in accordance with
the Federal Rules of Bankruptcy Procedure runs from
the date of the entry of this Order.

117a
Dated: September 6, 2018 /s/Peter G. Cary
Peter G. Cary
Chief Judge, United
States Bankruptcy
Court District of Maine

119a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 19-1161
IN RE: MONTREAL MAINE & ATLANTIC RAILWAY, LTD.,
Debtor.
ROBERT JAMES KEACH, Estate Representative
of the Post-Effective Date Estate of Montreal,
Maine and Atlantic Railway, Ltd.,
Appellant.
v.
NEW BRUNSWICK SOUTHERN RAILWAY COMPANY
LIMITED; MAINE NORTHERN RAILWAY COMPANY
Appellees.
Entered: April 7, 2020
Before
Howard, Chief Judge
Torruella, Lynch, Thompson, Kattaya,* and Barron,
Circuit Judges.

*

 Judge Kayatta is recused and did not participate in the consideration of this matter.

120a

ORDER OF COURT
Pursuant to First Circuit Internal Operating Procedure X(C), the petition for rehearing en banc has also
been treated as a petition for rehearing before the original panel. The petition for rehearing having been denied by the panel of judges who decided the case, and
the petition for rehearing en banc having been submitted to the active judges of this court and a majority of
the judges not having voted that the case be heard en
banc, it is ordered that the petition for rehearing and
petition for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk
cc:
Robert James Keach
D. Sam Anderson
Lindsay Zahradka Milne
Roma N. Desai
Adam R. Prescott
James F. Molleur
Roger A. Clement Jr.
Nathaniel Richard Hull
Keith J. Cunningham
Alan R. Lepene
Stephen G. Morrell

